<html>
<title> - U.S. INTERNATIONAL BROADCASTING INTO THE WAR ZONES: IRAQ AND AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-349]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-349
 
     U.S. INTERNATIONAL BROADCASTING INTO THE WAR ZONES: IRAQ AND 
                              AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                     OPERATIONS AND ORGANIZATIONS,
                        HUMAN RIGHTS, DEMOCRACY,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-784                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND        
            ORGANIZATIONS, HUMAN RIGHTS, DEMOCRACY,        
                   AND GLOBAL WOMEN'S ISSUES        

              BARBARA BOXER, California, Chairman        

RUSSELL D. FEINGOLD, Wisconsin       ROGER F. WICKER, Mississippi
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
KIRSTEN E. GILLIBRAND, New York

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Blaya, Hon. Joaquin, governor and chair of the Middle East 
  Broadcasting Network Subcommittee, Broadcasting Board of 
  Governors, Washington, DC......................................     9
    Joint prepared statement.....................................    12
Hirschberg, Hon. D. Jeffrey, governor and chair of the Radio Free 
  Europe/Radio Liberty Subcommittee, Broadcasting Board of 
  Governors, Washington, DC......................................     5
    Joint prepared statement.....................................    12
Kaufman, Hon. Edward E., U.S. Senator from Delaware, opening 
  statement......................................................     1
Simmons, Hon. Steven J., governor and chair of the Voice of 
  America Subcommittee, Broadcasting Board of Governors, 
  Washington, DC.................................................     7
    Joint prepared statement.....................................    12
Wicker, Hon. Roger F., U.S. Senator from Mississippi, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

Responses of Joaquin Blaya, Jeffrey Hirschberg, and Steven 
  Simmons to questions submitted by:
    Senator John F. Kerry........................................    30
    Senator Richard G. Lugar.....................................    37
Informational maps and graphs:
    Performance Indicators for BBG Broadcasters-Iraq.............    45
    BBG Transmission Capabilities to Afghanistan and Pakistan....    46
    BBG Transmission Capabilities to Iraq........................    46
    BBG Broadcasts in Afghanistan................................    47

                                 (iii)

  


     U.S. INTERNATIONAL BROADCASTING INTO THE WAR ZONES: IRAQ AND 
                              AFGHANISTAN

                              ----------                              


                       THURSDAY, OCTOBER 15, 2009

        U.S. Senate, Subcommittee on International 
            Operations and Organizations, Human Rights, 
            Democracy, and Global Women's Issues, Committee 
            on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Edward E. 
Kaufman, presiding.
    Present: Senators Kaufman, Shaheen, and Wicker.

          OPENING STATEMENT OF HON. EDWARD E. KAUFMAN,
                   U.S. SENATOR FROM DELAWARE

    Senator Kaufman. This afternoon I am honored to chair the 
International Operations and Organizations Subcommittee hearing 
examining the work of the Broadcasting Board of Governors in 
war zones, specifically Afghanistan and Iraq. International 
broadcasting is an issue I care deeply about, especially given 
my 13 years on the board.
    The U.S. international broadcasting began during the early 
years of World War II when Voice of America broadcast into 
areas formerly under Nazi occupation. The programs began by 
saying: ``Daily at this time, we shall speak to you about 
America and the war. The news may be good or bad. We shall tell 
you the truth.''
    This proud tradition of journalistic integrity has 
continued to this day as the BBG's entities, consisting of 
Voice of America, Radio Free Europe/Radio Liberty, Radio Free 
Asia, Radio and TV Marti, and the Middle East Broadcasting 
Network, broadcast in 60 languages--that is 60 languages--to an 
estimated weekly audience of 175 million people globally.
    I joined the BBG in 1995 as a charter member when it was 
placed in the U.S. Information Agency, or USIA. In October 
1999, 10 years ago this week, Congress established the BBG as 
its own independent Federal agency with a board appointed by 
the President and confirmed by the Senate. The impetus for this 
decision was to preserve the so-called firewall, separating 
policymakers from broadcasting. This is why the broadcasting 
entities report directly to the board, which is comprised of 
four Republicans and four Democrats, as well as the Secretary 
of State.
    As such, there is a clear delineation between those making 
programming decisions and those shaping policy, which is 
critical for maintaining journalistic integrity. In my view, 
the independence and autonomy of the BBG is the key to its 
success. This is what allows the BBG to fulfill two primary 
goals central to its mission. First, it serves as a credible 
source of balanced news reporting, and second, it demonstrates 
the true meaning of a free press internationally.
    Without the firewall, journalists may engage in self-
censorship or propaganda or government officials may attempt to 
sell a particular policy, as has happened in past 
administrations. This is why it is so essential that the BBG 
continue to follow the VOA Charter which affirms its role in 
``serving as a consistently reliable and authoritative source 
of news which is accurate, objective, and comprehensive.'' And 
the charter is over here on my left. The charter applies to all 
of BBG broadcasting entities.
    Today we will examine the BBG's work in war zones, namely 
Afghanistan and Iraq, and consider listenership, which is the 
strongest indication of successful programming. If you do not 
have a large audience, you cannot have impact. That alone is 
not what is required, but you also have to have successful, 
strong programming. In Iraq and Afghanistan, the BBG has 
launched several programs that have cultivated a wide audience. 
In both countries, the BBG has created sources of credible news 
and information readily accessible to the local population, in 
some cases for the first time in their history.
    In this sense, the role of broadcasting in war zones is 
particularly critical because it creates channels of 
communication with and among the population, which plays a role 
in winning hearts and minds.
    This is why I hope we can take a closer look at two key 
questions about U.S. international broadcasting in Afghanistan 
and Iraq. First, who is listening? And second, what are we 
saying? Also, because we are looking at two different wars in 
two distinct stages, I would add, what lessons can we learn 
from our past experiences that can be applied to both countries 
today?
    To answer these and other questions, we have governors 
chairing the BBG subcommittees which have oversight 
responsibility for the three broadcasting entities operating in 
Afghanistan and Iraq. We are lucky to have them here today 
because all three witnesses bring extraordinary experience to 
international broadcasting.
    First, we have Joaquin Blaya, who chairs the Middle East 
Broadcasting Network Subcommittee of the BBG, which oversees 
all broadcasting targeted to the Middle East. Governor Blaya 
brings a wealth of experience to the board, chairman of Blaya 
Media, Incorporated. He has held a number of senior management 
positions with media companies. He served as the chair of Radio 
Unica, a Spanish language radio network, and as CEO of 
Telemundo Group, as well as President of Univision, the world's 
second-largest and largest Spanish language media companies.
    The chair of the BBG Radio Free Europe/Radio Liberty 
Subcommittee is Jeff Hirschberg. Jeff has extensive experience 
in the public and private sectors, especially as it relates to 
the former Soviet Union. Jeff is currently Director of the 
U.S.-Russia Business Council, former director of the U.S.-
Russia Investment Fund, and a former director of the Center for 
Democracy. He is also a board member of Freedom House, the 
nongovernmental organization which supports the expansion of 
free press globally.
    Finally, we have Steve Simmons, chairman of the 
subcommittee that oversees the Voice of America. He was 
chairman and CEO of Simmons/Patriot Media and Communications, 
LLC. At its height, the New Jersey company served approximately 
350,000 cable subscribers in 20 States. In 2006, Steve was 
recognized by Cable World as U.S. Independent Cable Operator of 
the Year for Patriot's operational success and advanced 
technology.
    I want to thank all three witnesses for being with us 
today. We look forward to the testimony.
    I would also recognize other employees with the BBG that 
are here, the leaders of the BBG: Dan Austin, who is the 
director of Voice of America; Brian Conniff, the president of 
Middle East Broadcasting Network; Jeff Trimble, the 
Broadcasting Board of Governors executive director; Bruce 
Sherman, BBG's strategic planning and research; Tish King; and 
Susan Andross.
    Finally, I want to acknowledge Senator Boxer's generous 
offer to let me chair this hearing and Senator Wicker's support 
in being here today.
    I now turn it over to Senator Wicker for his opening 
statement.

           OPENING STATEMENT OF HON. ROGER F. WICKER,
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you very much, Senator Kaufman, for 
convening this hearing to evaluate the effectiveness of the 
Broadcasting Board of Governors' operations into Iraq and 
Afghanistan. This entails identifying the challenges the BBG 
has faced and continues to face in broadcasting to Iraq and the 
extent to which they have applied those lessons to their 
activities in Afghanistan.
    I recognize and appreciate Senator Kaufman for his 
particular expertise in regard to this issue. His service as a 
member of the BBG during the Clinton and Bush administrations 
was characterized by expertise and competency. Arguably there 
is no one better to evaluate and oversee the BBG's ability to 
advance the Nation's public diplomacy in conflict areas. And I 
am delighted that Senator Boxer has allowed him to chair today.
    Public diplomacy is defined as the U.S. Government's 
outreach to foreign populations. It is distinguished from the 
exclusive contact with foreign governments that has 
characterized traditional diplomacy. Public diplomacy 
represents an indispensable component of any viable foreign 
policy. This proposition ought to be and has been embraced by 
both sides of the aisle. Saying that is easy, however. Putting 
it into practice is considerably more difficult.
    A May 2009 GAO report describes the U.S. Government as 
spending more than $10 billion on international communication 
efforts since September 11, 2001. But international public 
opinion polling has highlighted negative attitudes toward the 
United States despite our Government's public diplomacy 
efforts. It is my hope that this hearing will shed light on 
this phenomenon and identify steps that will effectively turn 
this dynamic around.
    The BBG necessarily has to walk a fine line in order to 
justify its taxpayer dollars. It must demonstrate that it is 
effectively contributing to the U.S. national interest. It is 
not the job of the taxpayer to ensure that international 
audiences are informed of current issues, no matter how 
laudable that might be. The BBG must demonstrate that it 
primarily serves the interest of the United States citizens 
and, consequently, justifies the $682 million budget.
    At the same time, however, the BBG needs to cultivate a 
reputation for quality journalism. Foreign audiences will 
clearly reject broadcasts that they perceive as political 
propaganda. It is not an easy task to fulfill both of these 
requirements and to do so simultaneously
    This problem is all the more difficult when broadcasting 
into war zones and particularly insurgencies. Any 
counterinsurgency effort will involve a proportion of the 
population that no public diplomacy strategy will reach or 
persuade. There will also be a percentage of the population 
that, depending on their circumstances, will act either for or 
against U.S. military and political objectives. We saw this in 
Iraq's Anbar Awakening, and General McChrystal's military 
strategy affirms this to be true in Afghanistan.
    I am interested in knowing what role the BBG perceives 
itself as having in an effective counterinsurgency and how it 
goes about implementing this role. I am also interested in 
knowing what metrics the BBG has for evaluating its success in 
this role.
    Of course, the BBG does not act alone. The Departments of 
State, Defense, and USAID each have their own substantial 
public diplomacy responsibilities in these war zones. It is 
clear that these agencies have separate roles and the BBG has 
justifiably emphasized its independence from these other 
agencies in order to avoid being seen as simply a propaganda 
tool. That said, it is also important that there be a 
comprehensive strategy clearly delineating each agency's 
respective responsibilities and competencies in developing 
appropriate mechanism coordinations between them.
    I would be interested in hearing whether there have been 
specific Governmentwide strategies and coordination mechanisms 
developed for the Iraqi and AfPak context. I hope the witnesses 
will address this in their testimony.
    I would like to conclude on a note of realism. In a 1998 
``Today Show'' interview, Matt Lauer asked Secretary of State 
Madeleine Albright about the possible use of force against 
Iraq. Secretary Albright famously replied, ``If we have to use 
force, it is because we are America. We are the indispensable 
nation. We stand tall and we see further than other countries 
into the future, and we see the danger here to all of us.''
    Secretary Albright was correct then and her statement 
continues to be relevant. The fact of the matter is that the 
United States international interests and responsibilities 
frequently require it to adopt unpopular positions overseas and 
particularly in counterinsurgency situations. America's 
international prominence necessarily entails a degree of 
international unpopularity that we need to learn to live with. 
This does not at all undermine the need for an effective 
diplomacy strategy, and in fact, it reinforces it. But it is a 
fact that needs to be accounted for in our strategic planning 
and in our larger foreign policy development.
    So, Mr. Chairman, I welcome our panel of witnesses, and I 
look forward to their testimony. Thank you, sir.
    Senator Kaufman. Thank you, Senator Wicker.
    Now we have the statements from the panel, starting with 
Jeff Hirschberg, followed by Steve Simmons and Joaquin Blaya.

STATEMENT OF HON. D. JEFFREY HIRSCHBERG, GOVERNOR AND CHAIR OF 
THE RADIO FREE EUROPE/RADIO LIBERTY SUBCOMMITTEE, BROADCASTING 
               BOARD OF GOVERNORS, WASHINGTON, DC

    Mr. Hirschberg. Thank you, Mr. Chairman, Senator Wicker. 
Thank you for the opportunity to be before you today.
    For the last 7 years, the three of us have had the distinct 
privilege of supporting the efforts of U.S. international 
broadcasting. We are delighted to have done so.
    First, in order to proceed, I want to recognize the most 
important ingredients to good programming, which is the 
professional skills and courage of our journalists. Without 
these dedicated individuals, there would be no competent 
organization.
    It is our pleasure here today to speak to the role of 
United States international broadcasting in advancing United 
States national interests in Iraq and Afghanistan, and our hope 
is that by the end of this hearing, your questions and concerns 
will be satisfied.
    Our Nation continues to face the threat of violent 
extremism. There is consensus inside and outside Government 
that we cannot prevail against the extremists through force 
alone and that it is of critical importance to engage audiences 
whose attention we and our adversaries both seek.
    In our shared testimony today, which has been filed with 
the committee, we will outline our programs and our 
performance. Our performance measures track the agency's 
journalistic mission and focus on three things: audience reach, 
news reliability, and audience understanding.
    Mr. Chairman, we recognize your service on the Broadcasting 
Board of Governors and you have expressed to us and remind us 
over the years, as you have today, that the BBG's independence 
is critical to preserving the credibility of our audiences. You 
protected the board's duty to safeguard our broadcasters' 
editorial integrity and the board does act as a firewall 
against any Government office that would seek to determine our 
broadcasters' on-air content.
    This simple idea that truth serves the national interest 
has had profound consequences not just in World War II, but 
during the cold war when our news products from Voice of 
America and Radio Free Europe and Radio Liberty broadcasts 
helped end Soviet totalitarianism.
    This month, as has been stated before, marks the 10th 
anniversary of the independence of the U.S. international 
broadcasting under the auspices of the BBG, a period of 
remarkable growth where we have seen our audience size go from 
under 100 million to over 175 million people worldwide.
    At the commencement of the BBG's independence in 1999, Vice 
President, then-Senator, Joe Biden, gave the keynote speech and 
highlighted the ongoing importance and mission of U.S. 
international broadcasting with these words. ``Every day, U.S. 
international broadcasters provide news and information about 
America and the world to millions of people living in societies 
not yet free or that struggle to consolidate recently won 
freedoms. The news that you provide, whether about America or 
about events in foreign lands, empowers your audiences.''
    Today in Iraq and Afghanistan, VOA and RFE/RL and our newer 
broadcasters, Radio Sawa and Alhurra Television, are serving 
citizens caught up in tribal and sectarian strife and violent 
extremism. They serve a host of critical functions by doing the 
following things: fostering respect for human rights; 
strengthening civil society, rule of law, and transparency 
through their programming; stemming religious and ethnic 
intolerance; combatting hate media; and communicating American 
policies, values, and culture to their audiences.
    With respect to reaching Afghanistan, our U.S. Commander, 
General McChrystal, has stated that effective communication is 
vital to ``the operational center of gravity; the continued 
support of the Afghan people.'' We at the BBG believe that we 
are constructively engaging the Afghan people.
    VOA and RFE/RL join together in Afghanistan to produce a 
coordinated 24/7 stream of programming in Dari and Pashto, 
transmitted by a high-powered AM from Kabul and five local FMs 
in major cities across the country. Cross-border shortwave 
ensures a listenable signal nationwide. In addition, VOA 
broadcasts a daily hour-long TV program in Dari and Pashto over 
Afghanistan State Television. Together RFE/RL and VOA are the 
No. 1 broadcasting entity in Afghanistan in audience-reach, 
according to independent analysis.
    VOA, according to its mission, focuses on coverage of news 
and policy debates concerning Afghanistan taking place in 
Washington, news in Afghanistan with a strong United States 
angle, and regional and international news.
    RFE/RL slightly differently stresses its trademark local 
news coverage, capturing all aspects of the insurgency and 
microreporting on issues such as health, education, women's 
issues, and other topics.
    Both of these broadcast entities together reach 56 percent 
of Afghan adults, 15 years of age and older, every week, a 
regular audience of nearly 10 million people, surpassing all 
other media, foreign and domestic.
    RFE/RL's combined Dari and Pashto service is by itself the 
most popular media outlet in the country. It is also the 
service Afghans say they turn to first--first--for news and 
information and the ones Afghans said they most preferred for 
news about the recent elections.
    More particularly, we are attracting the really hard-to-
reach audience. On a daily basis, RFE/RL and VOA together reach 
26 percent of those who say they strongly oppose the Afghan 
Government. So we are reaching all audiences.
    But the BBG's impact goes well beyond numbers, and I would 
like to turn now to Steve Simmons, chairman of the VOA 
Committee of the board, to discuss the flavor of the 
programming and its impact.

STATEMENT OF HON. STEVEN J. SIMMONS, GOVERNOR AND CHAIR OF THE 
VOICE OF AMERICA SUBCOMMITTEE, BROADCASTING BOARD OF GOVERNORS, 
                         WASHINGTON, DC

    Mr. Simmons. Thank you, Governor Hirschberg.
    It is good to be here, and I want to join in recognizing 
Senator Kaufman's service on the board for 9 years. We sat next 
to each other for most of those years, and it was a pleasure 
and a privilege to work with him on all of these issues.
    As you heard, audience numbers in Afghanistan are extremely 
high. But impact also can be seen in personal stories of 
listeners, program interactivity, and in the depth of the ideas 
shared in the programming. Let me give you a few examples.
    Showing the power of VOA and RFE/RL's combined reporting 
was their wall-to-wall coverage of the recent Afghan 
Presidential election, which there has been so much debate 
about in the newspapers and in our media here. During that 
election, RFE/RL interviewed all 41--yes, all 41--candidates, 
every one of them, in on-air forums in which Afghan citizens 
had the opportunity to call in with questions. In an 
unprecedented development, RFE/RL's Dari and Pashto service 
cohosted with the Afghan State Television the only Presidential 
election debate that President Karzai attended. The service 
director, Akbar Ayazi, served as the debate's sole moderator.
    From Washington, VOA reported on the Obama administration's 
Afghan policy and the positions of Members of Congress and 
other top United States officials toward the election. VOA 
managing editors traveled to Kabul to report live and cohost 
call-in shows. VOA stringers added to RFE/RL local reports with 
coverage from polling stations and locations throughout the 
country.
    RFE/RL programming routinely addresses Islam responding to 
the knowledge that Islam is the No. 1 issue for Afghans. These 
programs discuss the religious implications of suicide bombings 
and terrorism and the nature and aims of the Taliban and al-
Qaeda, giving the Afghan people a deeper understanding of the 
conflict in which they are engaged.
    Both RFE/RL and VOA closely monitor human rights in 
Afghanistan. When the Afghan Parliament passed a law 
restricting the rights of Shia women, VOA TV broadcast a 
special program featuring both opponents and supporters of the 
law.
    During a recent VOA call-in show with the Afghan Minister 
of Education, a disabled student called saying he was unable to 
attend school because he did not have a wheelchair. The next 
day the Ministry of Education arranged for the caller to 
receive a wheelchair.
    Again, these are just kinds of programs that impact the 
lives of our listeners.
    Let me now address our newest programming to the critical 
Afghanistan/Pakistan border region which, as we know, is the 
epicenter of Taliban and al-Qaeda operations.
    Propaganda plays a major role in the extremists' campaign 
for dominance. Radio is the dominant medium in the Afghan/Pak 
border region. Through radio, the insurgents pour out their 
disinformation and their lies and their threats. But radio is 
also the means by which BBG broadcasters can counter their 
propaganda, not with propaganda of a different sort but with 
objective, comprehensive journalism that conveys factual, 
balanced news and information.
    BBG broadcasts in Dari and Pashto blanket Afghanistan, and 
our Urdu programming serves Pakistan nationwide. For the 
Afghanistan/Pakistan border area, we initiated in 2006 a 
dedicated service by the Voice of America in the unique 
regional Pashto dialect called Deewa Radio. Senator Wicker 
asked about our role in this fight we are undergoing in that 
region, and this radio broadcast responding to administration 
priorities is one of the things we created to participate and 
hopefully help in that region.
    This Radio Deewa station we created focuses on local issues 
and produces 9 hours of daily programming, including live news, 
current affairs, call-in shows, and music. It transmits its 
signal via AM, FM, and shortwave.
    An early study by the U.S. Agency for International 
Development suggested Deewa had a wide following. We see robust 
audience reaction every day in some 400 listener phone calls to 
on-air discussion programs. We cannot possibly take them all, 
so the lights on the phones are just lit up as people try to 
call in to talk to the hosts and the people on the show and to 
have their voices heard.
    The feedback indicates that local Pashto speakers, mostly 
in Pakistan, but on the Afghan side of the border as well, seek 
engagement. They want their voices heard. Deewa, which in 
English means light, is giving them a voice.
    One listener in the Swat Valley said Deewa Radio is ``the 
only source of information.'' Many listeners in the regions of 
Waziristan, Swat, and Bajaur have told the station that they 
plan their activities around Deewa's broadcasts.
    Key to Deewa's success is what has worked so well in 
Afghanistan: news and information tailored to the audience's 
needs and interests. The station maintains a network of some 25 
local stringers who file a steady stream of reports on such 
topics as Pakistan's military campaign against Taliban forces 
and those displaced by Taliban threats or combat.
    Earlier this year, to complement Deewa, Congress endorsed 
new RFE/RL Pashto broadcasts for the border region. Working in 
cooperation with VOA's Deewa Radio, the new Radio Azadi will 
broadcast 6 hours daily. With reporters on both sides of the 
border and throughout Pakistan, the news service will reach out 
to combat the radical broadcasting going on in that area.
    And finally, I should also point out that Radio Aap ki 
Dunyaa, VOA's Urdu language broadcast, reaches all of Pakistan, 
including the critical border region. So through Deewa, through 
our new RFE/RL broadcasts, and through the Aap ki Dunyaa Radio 
signal, we are putting, we think, a pretty strong flow of 
programming into the Afghan/Pakistan border region.
    With that, I will turn to Governor Blaya, who will talk 
about broadcasting to Iraq.

  STATEMENT OF HON. JOAQUIN BLAYA, GOVERNOR AND CHAIR OF THE 
  MIDDLE EAST BROADCASTING NETWORK SUBCOMMITTEE, BROADCASTING 
               BOARD OF GOVERNORS, WASHINGTON, DC

    Mr. Blaya. Thank you. I would like to recognize Senator 
Kaufman's contributions as the voice of conscience of the BBG 
for so, so many years.
    Let me talk about broadcasting to Iraq. Our success in Iraq 
is reflected in part in huge audiences. Every week, 73 percent 
of Iraqi adults, some 9.5 million people, listen to or watch 
one of the four BBG broadcasters serving the country, including 
Alhurra television, Radio Sawa, Radio Free Europe, Radio Free 
Iraq, and VOA Kurdish.
    Alhurra is the fourth leading television channel among 
hundreds of channels available by satellite and locally with 32 
percent daily and 64 percent weekly reach. It is also among the 
Iraqis' top choices for news and information on television.
    Radio Sawa is the most listened-to radio station in Iraq 
with 23-percent weekly reach and is among Iraqis' top three 
sources for news on the radio.
    Radio Free Iraq, with 10-percent weekly reach, is among the 
top five radio stations for news.
    In addition, VOA Kurdish reaches 12 percent of its target 
audience weekly.
    The challenges to broadcasting in Iraq have been 
significant.
    Our progress is due principally to three factors. First, we 
set up local operation including news bureaus. Second, we 
secured local transmission for both radio and television, 
including FM and television stations in major cities in Iraq. 
And third, BBG broadcasters have sustained 24/7 news and 
information coverage pegged to developments and issues on the 
ground in Iraq and in sync with the needs and preferences of 
Iraqi audiences.
    Local presence and feel, excellent domestic distribution 
and highly relevant news and other programming has been the 
formula that has won a wide Iraqi following.
    At the same time, our broadcasters give Iraqis 
comprehensive regional and international news, including in-
depth coverage of United States society, culture, and policies. 
Indeed, reporting on the United States is a competitive 
advantage for the BBG broadcasters with news from Washington on 
United States-Iraq policy and plans and particularly directly 
relevant to Iraqi citizens.
    BBG's strategy stresses a multimedia approach and leverages 
the unique strengths of each of the four broadcasters to target 
discrete Iraqi audience segments with custom-tailored content.
    Alhurra Iraq. Most Iraqis get their news from television 
and thus a strong television presence in Iraq is important for 
the BBG. Alhurra Iraq is a 24/7 news and information channel 
that targets Iraq news-seekers 25 years of age and older with 
rich, local content and coverage of the region and the United 
States.
    More than 30 percent of Alhurra Iraq's schedule is specific 
to Iraq, including prime time broadcast hours from 7 to 10 p.m. 
when the channel's premier newscasts, Iraq's news program of 
record, airs.
    Driving Alhurra Iraq's national coverage is its large 
Baghdad bureau and network of in-country correspondents. They 
speak the local dialect and grasp their fellow citizens' hopes 
and hardships. Their stories can be uniquely empowering.
    When the Iraqi Government threatened to destroy the homes 
of Iraqis who lacked property deeds, Alhurra investigated with 
on-camera interviews of the responsible officials, who then 
reversed course, sparing thousands from homelessness.
    When injured Iraqi soldiers were denied medical care and 
insurance, Alhurra broke the story, leading to the first-ever 
Iraqi hospital for wounded veterans.
    And when a young boy lost his parents and his leg in a 
bombing, Alhurra told the story, prompting Iraq's Minister of 
Work and Social Affairs to place him in an orphanage with 
coverage of his medical costs.
    Such stories might seem ordinary, but in Iraq, with no 
tradition of press freedom, they are, in fact, glimpse of a 
nascent fourth estate.
    Alhurra's newest innovation is Al Youm, a live, 3-hour 
daily news magazine that originates simultaneously from Dubai, 
Beirut, Cairo, Jerusalem, and Washington. It is patterned on 
the popular format of the ``Today'' show in the United States 
but designed to air in the evening. Al Youm combines the latest 
news from three continents with a mix of health, entertainment, 
sports, technology, business, and other features.
    Al Youm bridges divides among the countries of the region 
and between the region and the United States. Indeed, it 
connects cultures in a way few Arab outlets are disposed to 
doing. Its reporting offers breadth of coverage seen nowhere 
else, like a recent news report on Darfur with views of 
officials in Khartoum and Cairo and a report from Jerusalem on 
Israel's program of asylum for Darfurian refugees.
    In-depth coverage of the United States is built into Al 
Youm and carried forth across the Alhurra network. News reports 
and in-depth programs like ``Inside Washington'' provide Iraqi 
viewers with an unparalleled look at the United States 
political process, including interviews with the figures that 
impact policy, people as diverse as Supreme Court Justice 
Antonin Scalia and New York Times Thomas Friedman.
    Alhurra's coverage of the 2008 Presidential election 
showcased its U.S. reporting strengths. The network carried 
live reports and talk shows from the key primary States, wall-
to-wall reporting from both Republican and Democratic political 
conventions, and live coverage of election day activities and 
election night returns.
    Radio Sawa is Alhurra's companion network, and for Iraq, it 
also produces a dedicated programming stream that provides 
comparable Iraq-specific news as well as short information and 
interactive features tailored to the tastes of young Iraqis.
    FM Radio is an intimate local medium. Sawa's local presence 
and feel have been essential to its staying power. Its 
transmitter network has grown from one in Baghdad in 2003 to 14 
nationwide today. Its music, chosen for its specific appeal to 
Iraqis, keeps the station's sound fresh. And its local news 
originates from the same Baghdad hub that serves Alhurra Iraq.
    Contrary to the behavior one might expect of young people 
tuning in first for music, Sawa listeners pay attention to the 
news.
    Every day Sawa interacts with its audience posing a 
question through its Sawa Chat feature on topics such as family 
life, democracy, and the arts. Listeners call in to voice their 
opinions and their views are aired throughout the following 
day.
    Radio Free Iraq is a news and information service focused 
on Iraq transition to democracy. It specializes in political 
reporting to complement the broad-based news and information 
and mass audience engagement of Alhurra Iraq and Radio Sawa.
    Like Radio Sawa, RFI is a local broadcaster in Iraq. It 
airs 17 hours of programming daily nationwide on its own 
network of FM transmitters.
    Typifying Radio Free Iraq's news reporting is its coverage 
of the ongoing dispute over Iraqi elections. Iraq is scheduled 
to have parliamentary elections this January 16, but a new 
election law has yet to be passed. RFI has been on top of the 
story, exploring the controversy over closed versus open party 
lists, seeking out popular opinion, and covering the debate in 
Parliament.
    As one director of RFI put it: ``In Iraq opinions are so 
intolerant of one another and there are so many news 
organizations that belong to political groups and deliver those 
groups' political agendas. We are committed to trying to 
present as many points of view as we can and put them in a 
civilized debate.''
    Voice of America Kurdish. It is the only broadcaster, 
indeed, the only Western broadcaster, to serve Kurdish-speaking 
Iraqis, which are anywhere from 15 to 18 percent of the 
population. They serve in their own language. VOA airs 4 hours 
daily of programming in two dialects to the Kurdish region in 
northern Iraq, also reaching Kurds in neighboring countries of 
Iran, Turkey, and Syria.
    VOA Kurdish provides its target audience with a service 
tailored to their needs and sensibilities as a minority within 
greater Iraq. The news is broad-based covering developments in 
Iraq, the Middle East and the world, but reflects the Kurdish 
agenda. Programs feature panel discussions with Kurds in the 
greater Middle East region and the diaspora. Music is both in 
Kurdish and American.
    Mr. Chairman, in conclusion, BBG broadcasters are an 
independent, yet integral part of the United States Government 
communication effort that seeks to advance United States 
national interests in Iraq and Afghanistan and around the 
world. Our experience in Iraq and Afghanistan has yielded 
important lessons for broadcasting effectiveness. First, we 
play a critical role especially in countries like Iraq and 
Afghanistan that lack adequate press freedom and credible 
alternative media. Second, we succeed when, A, we deliver the 
news our audiences want and need to make informed judgments 
about their societies and, B, when we deliver
our content via the media our audiences prefer and they can 
easily access.
    We will be very happy to entertain questions.
    [The joint prepared statement of Mr. Hirschberg, Mr. 
Simmons, and Mr. Blaya, follows:]

  Joint Prepared Statement of the Broadcasting Board of Governors, as 
   Delivered by Jeffrey Hirschberg, Joaquin Blaya, and Steven Simmons

    Mr. Chairman, it is our pleasure to be here today to speak to the 
role of U.S. international broadcasting in advancing U.S. national 
interests in Iraq and Afghanistan.
    This is an opportune moment to address you. Our Nation continues to 
face the threat of violent extremism. In Iraq and Afghanistan, our 
Government has deployed a wide range of strategic assets to meet the 
challenges to U.S. national security and to the safety and well-being 
of the Iraqi and Afghan people.
    There is consensus inside and outside government that we cannot 
prevail against the extremists through force alone, and that it is of 
critical importance to engage audiences whose attention we and our 
adversaries both seek.
    We will in our shared testimony today address the success of U.S. 
international broadcasting in Iraq and Afghanistan, citing copious 
research and other impact measures.
    It is also an opportune moment to appear before you as this month 
marks the 10th anniversary of the independence of U.S. international 
broadcasting under the Broadcasting Board of Governors. This has been a 
period of remarkable growth in the scope and impact of BBG operations. 
With generous support from Congress, our funding has increased from 
$400 million to over $700 million, and our global audiences have grown 
from under 100 million to nearly 175 million.
    We recognize, Senator Kaufman, your service on the Board and your 
many contributions to the BBG's accomplishments.
    You often reminded us that the BBG's independence is critical to 
preserving credibility with our audiences. We must have the latitude to 
do the news straight up. Audiences will readily detect a slant or a 
hidden agenda, and they will tune out as a result.
    But independence is not enough. As you also consistently urged, one 
of the Board's key duties is to safeguard our broadcasters' 
journalistic integrity by being a firewall between them and any 
government office or private party that would seek to determine their 
on-air content.
    U.S. international broadcasting rests on the principle that truth 
serves the national interest--not the absolute truth as professed by 
ideologues and extremists but the objective truth that stems from 
balanced, factual news reporting.
    This simple idea has had profound consequences. Accurate, 
comprehensive news from VOA during World War II contributed to the 
defeat of German Nazism. Then, during the long cold war, the same news 
product from VOA and Radio Free Europe and Radio Liberty broadcasts 
helped stymie and ultimately end Soviet totalitarianism.
    At the commemoration of the BBG's independence in 1999, our Vice 
President, then-Senator, Joe Biden, gave the keynote speech and 
highlighted the ongoing importance and mission of U.S. international 
broadcasting with these words: ``The struggle in which media play a 
critical part is never-ending. That struggle is the fight to protect 
and promote freedom.''
    He continued: ``Every day, U.S. international broadcasters provide 
news and information about America and the world to millions of people 
living in societies not yet free or that struggle to consolidate 
recently won freedoms . . . The news that you provide, whether about 
America or about events in foreign lands, empowers your audiences.''
    Today, in Iraq and Afghanistan, VOA and RFE/RL, and our newer 
broadcasters, Radio Sawa and Alhurra TV, are serving citizens caught up 
in tribal and sectarian strife and violent extremism.
    Being in practice a free, professional press in support of freedom 
and democracy is the shared mission of all BBG broadcasters.
    We know we have succeeded when freedom and democracy have taken 
hold, as they did during the 1990s across what had been traditional 
target areas for U.S. international broadcasting--Central and Eastern 
Europe. That is our long-term desired effect.
    En route to this goal, we serve a host of critical functions. These 
include:
        Fostering respect for human rights;
        Strengthening civil society, rule of law, and transparency;
        Stemming religious and ethnic intolerance;
        Combating hate media; and
        Communicating what America stands for--our policies, values, 
        and culture.
    Our performance measures track our mission and focus on audience 
reach, news reliability, and audience understanding.

                          REACHING AFGHANISTAN

    U.S. Commander for Afghanistan, Stanley McChrystal, has described 
the current state of affairs in the country in these terms: ``The 
situation in Afghanistan is serious . . . We face not only a resilient 
and growing insurgency; there is also a crisis of confidence among 
Afghans . . . '' Effective communication, he argues, is vital to ``the 
operational center of gravity: The continued support of the Afghan 
people.''
    What we at the BBG can say is that we are leveraging all our assets 
to support the mission of constructively engaging the Afghan people.
    VOA and RFE/RL join together in Afghanistan to produce a 
coordinated 24/7 stream of programming in Dari and Pashto, transmitted 
via high-powered AM from Kabul and via five local FMs in major cities 
across the country. There is also cross-border shortwave to ensure a 
listenable signal nationwide. In addition, VOA broadcasts a daily hour-
long TV program in Dari and Pashto over Afghanistan State Television.
    RFE/RL and VOA are together the number one broadcasting entity in 
Afghanistan in audience reach.
    VOA plays to its strengths as a U.S.-based broadcaster focused on 
coverage of news and policy debates concerning Afghanistan taking place 
in Washington, news in Afghanistan with a strong U.S. angle and 
regional and international news.
    RFE/RL stresses its trademark local news coverage, capturing all 
aspects of the insurgency and microreporting on health, education, 
women's issues, among other topics at the top of the Afghan people's 
news and information agenda.
    Showcasing the power of VOA and RFE/RL's combined reporting was 
their wall-to-wall coverage of the recent Afghan Presidential election.
    RFE/RL interviewed all 41 candidates in on-air forums in which 
Afghan citizens had the opportunity to call in with questions. In an 
unprecedented development, RFE/RL's Dari and Pashto service cohosted 
with Afghanistan State Television the only Presidential election debate 
that President Hamid Karzai attended. The service director, Akbar 
Ayazi, served as the debate's sole moderator.
    All in all, RFE/RL allowed listeners throughout Afghanistan to 
escape personality based elections and to examine the candidates in the 
context of the issues of the day.
    From Washington, VOA reported on the Obama administration's Afghan 
policy and the positions of Members of Congress and other top U.S. 
officials toward the election. To enhance overall BBG coverage, VOA 
managing editors traveled to Kabul to report live and cohost call-in 
shows. VOA stringers added to RFE/RL local reports with coverage from 
polling stations and locations throughout the country.
    Beyond special events coverage such as the Afghan elections, VOA 
and RFE/RL address every aspect of Afghan life day in and day out.
    Among its many programming focus areas, RFE/RL routinely addresses 
Islam (which research shows is the number one issue for Afghans), the 
religious implications of suicide bombings and terrorism, and the 
nature and aims of the Taliban and al-Qaeda--in the station's 
commitment to giving the Afghan people a deeper understanding of the 
conflict in which they are engaged.
    Both RFE/RL and VOA closely monitor human rights in Afghanistan. 
When the Afghan Parliament passed a law restricting the rights of Shia 
women, VOA TV broadcast a special program featuring both opponents and 
supporters of the law. Senator Barbara Boxer and Melanne Verveer, the 
U.S. Ambassador at Large for Global Women's Issues, were among those 
who participated.
    The effect of BBG broadcasting in Afghanistan is that RFE/RL and 
VOA have won the loyal following of the Afghan people. Together they 
reach 56 percent of all Afghan adults (15 years of age and older) every 
week--a regular audience of nearly 10 million people--surpassing all 
other media, foreign and domestic.
    RFE/RL's combined Dari and Pashto service is, by itself, the most 
popular media outlet in the country. It is also the service Afghans say 
they turn to first for news and information, and the one Afghans said 
they most preferred for news about the recent elections.
    More particularly, though, when we look at whether we are 
attracting the really hard-to-reach audiences--namely, the insurgents--
we see that, on a daily basis, RFE/RL and VOA together reach 26 percent 
of those who say they strongly oppose the Afghan Government.
    But BBG impact goes well beyond the numbers. During a recent 
appearance on a VOA call-in show with the Afghan Minister of Education 
about new textbooks for Afghan schools, a disabled student called and 
said he was unable to attend school because he didn't have a 
wheelchair. The next day, VOA's program host got a note from the Afghan 
Ministry of Education saying it arranged for the caller to receive a 
wheelchair.
    The upshot is this: BBG broadcasters are delivering the goods.
    While the insurgency remains a force, it is also true that 
overwhelmingly Afghans do not support the Taliban, and hold the Taliban 
accountable for much of the chaos and violence in Afghan society. At 
the same time, Afghans remain broadly supportive of their government 
and of U.S. troop presence in the country.
    We cannot claim our broadcasts are directly responsible for these 
attitudes. But we are hard pressed to imagine what the situation in the 
country would be like without the factual, relevant, and credible 
reporting RFE/RL and VOA produce.

                          BROADCASTING TO IRAQ

    BBG broadcasters perform an independent but integral role in the 
overall U.S. mission in Iraq.
    Despite abundant media, press freedom in Iraq reflects the 
country's status as a recovering war zone. Freedom House rates Iraq 
``not free'' and places it 148 out of 195 countries worldwide. 
Reporters without Borders cites recent improvements for journalists but 
notes that since 2003 there have been 77 kidnappings, of which 23 ended 
in murder--including, we sadly recall, two correspondents of RFE/RL's 
Radio Free Iraq. Domestic media tend to be tools of specific Iraqi 
sects and factions. Independent journalists risk their lives every day.
    Our success is reflected in part in huge audiences. Every week, 73 
percent of Iraqi adults--some 9.5 million people--listen to or watch 
one of the four BBG broadcasters serving the country, including Alhurra 
TV, Radio Sawa, RFE/RL's Radio Free Iraq, and VOA Kurdish.
    Alhurra is the fourth leading TV channel among hundreds of channels 
available by satellite and locally with 32 percent daily, and 64 
percent weekly reach. It is also among Iraqis' top choices for news and 
information on TV. Radio Sawa is the most listened-to radio station in 
Iraq, with 23 percent weekly reach, and is among Iraqis' top three 
sources for news on the radio. Radio Free Iraq, with 10 percent weekly 
reach, is among the top five radio stations for news. In addition, VOA 
Kurdish reaches 12 percent of its target audience weekly.
    The challenges have been significant. At the start of the conflict 
in Iraq, we had no established broadcasting platform in the country--no 
local facilities, no in-country transmission, no significant national 
audience. Broad anti-Americanism deepened after the war began, posing 
significant credibility hurdles. At the same time, Iraqi and foreign 
media outlets proliferated, intensifying competition.
    Our progress has been due principally to three factors. First, we 
quickly set up local operations, including news bureaus. Second, early 
on we secured local transmission for both radio and TV, including FM 
and TV stations in major Iraqi cities--important to Alhurra's early 
ability to gain market share while satellite dish ownership spread. And 
third, BBG broadcasters have sustained 24/7 news and information 
coverage, pegged to developments and issues on the ground in Iraq and 
in synch with the needs and preferences of Iraqi audiences.
    Local presence and feel, excellent domestic distribution, and 
highly relevant news and other programming--this has been the formula 
that has won BBG broadcasters their wide Iraqi following.
    At the same time, our broadcasters give Iraqis comprehensive 
regional and international news, including in-depth coverage of U.S. 
society, culture, and policies. Indeed, reporting on the United States 
is a competitive advantage for BBG broadcasters with news from 
Washington on U.S. Iraq policy and plans that are directly relevant to 
Iraqi citizens.
    BBG strategy stresses a multimedia approach and leverages the 
unique strengths of each of the four broadcasters to target discrete 
Iraqi audience segments with custom-tailored content.

                              ALHURRA IRAQ

    Most Iraqis get their news from TV, and thus a strong TV presence 
in Iraq is important for the BBG. Alhurra Iraq is a 24/7 news and 
information channel, and an off-shoot of the Alhurra network for the 
broader Middle East. Alhurra Iraq targets Iraqi news-seekers 25 years 
of age and older with rich local content and coverage of the region and 
the United States from the pan-Arab stream.
    More than 30 percent of Alhurra Iraq's schedule is specific to 
Iraq, including primetime broadcast hours of 7-10 p.m., when the 
channel's premier newscast, Iraq's news program of record, airs.
    Driving Alhurra Iraq's national coverage is its large Baghdad 
bureau and network of in-country correspondents. They speak the local 
dialect and intuitively grasp their fellow citizens' hopes and 
hardships. Their stories can be uniquely empowering:
          When the Iraqi Government threatened to destroy the homes of 
        Iraqis who lacked property deeds, Alhurra investigated with on-
        camera interviews of the responsible officials, who then 
        reversed course, sparing thousands from homelessness.
          When injured Iraqi soldiers were denied medical care and 
        insurance, Alhurra broke the story, leading to the first-ever 
        Iraqi hospital for wounded veterans.
          And, when a young boy lost his parents and his leg in a 
        bombing, Alhurra told his story, prompting Iraq's Minister of 
        Work and Social Affairs to place him in an orphanage with 
        coverage of his medical costs.
    Such stories might seem ordinary. But in Iraq, with no tradition of 
press freedom, they are in fact a glimpse of a nascent Fourth Estate.
    Complementing Alhurra Iraq's national coverage is programming from 
Alhurra's pan-Arab stream that also stretches the boundaries of freedom 
of speech and tolerance. Equality and Women's Views, weekly programs, 
address taboo topics like polygamy and spousal abuse. Eye on Democracy, 
also weekly, examines sensitive subjects like Islam and democracy and 
human rights in the Arab world.
    Alhurra's newest innovation--both for the pan-Arab stream and 
Alhurra Iraq--is Al Youm (``Today''), a live, 3-hour, daily news 
magazine that originates simultaneously from Dubai, Beirut, Cairo, 
Jerusalem, and Washington. Patterned on the popular ``Today'' show in 
the United States but designed to air in the evening, Al Youm combines 
the latest news from three continents with an eclectic and engaging mix 
of health, entertainment, sports, technology, business, and other 
features.
    With every broadcast, Al Youm bridges divides among the countries 
of the region and between the region and the United States. Indeed, it 
connects cultures in a way few Arab outlets are disposed to doing. And 
its multisourced reporting offers breadth of coverage seen nowhere 
else--like a recent news report on Darfur with views of officials in 
Khartoum and Cairo, and a report from Jerusalem on Israel's program of 
asylum for Darfurian refugees.
    In-depth coverage of the United States is built into Al Youm and 
carried forth across the Alhurra network. Alhurra is the only Arabic-
language television network with correspondents dedicated to the White 
House, Congress, Pentagon, and State Department. News reports and in-
depth programs like ``Inside Washington'' provide Iraqi viewers with an 
unparalleled look at the U.S. political process, including interviews 
with the figures that impact policy, people as diverse as Supreme Court 
Justice Antonin Scalia and New York Times columnist Thomas Friedman.
    Alhurra's coverage of the 2008 Presidential elections showcased its 
U.S. reporting strengths. The network carried live reports and talk 
shows from the key primary states, wall-to-wall reporting from both 
Republican and Democratic political conventions, and live coverage of 
election-day activities and election-night returns.
    Commenting on Alhurra's election coverage, the popular pan-Arab 
newspaper Al Hayat wrote, ``With the heated elections race in the 
United States, Alhurra distinguished itself as the most professional 
and active satellite TV channel among all the Arabic-speaking satellite 
channels . . . ''

                               RADIO SAWA

    Radio Sawa is Alhurra's companion network, and for Iraq, it also 
produces a dedicated programming stream that provides comparable Iraq-
specific news as well as short information and interactive features 
tailored to the tastes of young Iraqis and designed specifically for 
the station's contemporary Arabic/Western music format.
    Radio use overall in Iraq has been declining in recent years in 
tandem with the rise of TV and as such, most Iraqi radio stations have 
lost audience. However, Sawa's listenership has dropped much less than 
others.
    FM Radio is an intimate local medium. Sawa's local presence and 
feel have been essential to its staying power. Its transmitter network 
has grown from one in Baghdad in 2003 to 14 nationwide today. Its 
music, chosen for its specific appeal to Iraqis, keeps the station's 
sound fresh. And its local news originates from the same Baghdad hub 
that serves Alhurra Iraq.
    While Iraqis turn to TV first for news, they also listen to news on 
the radio. Sawa's format is meant to attract younger audiences who 
would not otherwise consume news. And it works.
    Extensive research to test what Sawa listeners do when the news 
comes on reveals that the vast majority either pay equal or greater 
attention--contrary to the behavior one might expect of young people 
tuning in first for music.
    Attracting and holding audience for the information content is 
important to maximize the value of programs like Sawa's Straight to the 
Point, which includes interviews with Iraqi decisionmakers and senior 
officials answering questions about the most prominent security, 
political or social issue of the day.
    Indeed, Sawa pushes the envelope on its format to incorporate the 
maximum amount of value-added content without alienating the audience.
    Interaction with the audience plays a key role. Every day, Sawa 
poses a different question to its audience through its Sawa Chat 
feature on topics such as family life, democracy, the arts, etc. 
Listeners call in to voice their opinions, and their views are aired 
throughout the following day.
    Sawa Chat exemplifies the open discussion of ideas and creates 
community around shared views. In doing so, it adds another component 
to Radio Sawa's profile of a station uniquely Iraq and yet one modeling 
a free press that conveys a popular, democratic spirit taking hold 
across Iraq.

                            RADIO FREE IRAQ

    Radio Free Iraq (RFI) is a news and information service focused on 
Iraq's transition to democracy. It specializes in political reporting 
to complement the broad-based news and information and mass audience 
engagement of Alhurra Iraq and Radio Sawa.
    Like Radio Sawa, RFI is a local broadcaster in Iraq. It airs 10 
hours of programming daily nationwide on its own network of FM 
transmitters.
    Typifying RFI's news reporting has been its coverage of the dispute 
over Iraq's elections. RFI has been on top of the story, exploring the 
controversy over ``closed'' versus ``open'' party lists, seeking out 
popular opinion, and covering the debate in Parliament.
    In a similar vein, RFI's reporters have been deeply engaged in 
covering the bitter controversy over Iraq's efforts to pass a new oil 
and gas law. It has looked not only at the problems within Iraq but 
also the dispute between Baghdad and the Kurdish Regional Government 
over control of energy resources in northern Iraq. RFI has provided in-
depth analysis on the energy issue from some of the best national, 
regional and international experts.
    On this, as with RFI coverage generally, it explains how the 
leading issues of the day fit into the bigger picture in a way local 
Iraqi media, with more limited resources and partisan leanings, could 
not do.
    As one director of RFI put it: ``In Iraq . . . opinions are so 
intolerant of one another, and there are so many news organizations 
that belong to political groups and deliver these groups' political 
agendas . . . We are committed to trying to present as many points of 
view as we can, and put them in a civilized debate.''
    This is RFI's contribution to the BBG's aim of empowering audiences 
and, in turn, to Iraq's transition to more free and democratic society.

                              VOA KURDISH

    VOA is the only U.S. broadcaster--indeed, the only Western 
broadcaster--to serve Kurdish-speaking Iraqis (15-20 percent of the 
Iraqi population) in their own language. VOA airs 4 hours daily of 
programming in both the Sorani and Kurmanji dialects to the Kurdish 
region in northern Iraq, reaching as well Kurds in neighboring 
countries of Iran, Turkey, and Syria.
    VOA Kurdish provides its target audience with a service tailored to 
their needs and sensibilities as a minority within greater Iraq. The 
news is broad-based, covering developments in Iraq, the Middle East, 
and the world, but reflects Kurdish interests. Programs feature panel 
discussions with Kurds in the greater Middle East region and in the 
diaspora. Music is both Kurdish and American.
    Novel in the universe of BBG programs is the Kurdish service's 
children's program, Shining Star, which addresses topics ranging from 
the environment to education and hygiene. Kurdish children and their 
parents from all over the world contact the program to participate.
    Iraqi President Jalal Talabani and Foreign Minister Hoshyar Zebari 
have expressed their appreciation to VOA for taking the lead in 
presenting objective, balanced and comprehensive news and information 
for Kurdish audiences in the Middle East.
    VOA Kurdish is also available via the Internet, and increasingly 
its stories are redistributed via the Web.

            REACHING THE AFGHANISTAN-PAKISTAN BORDER REGION

    The epicenter of Taliban and al-Qaeda operations lies in the 
Afghanistan-Pakistan border region. From there, the Taliban organize 
and launch offensives against the people of Afghanistan and U.S. and 
NATO forces. Also from there, they have begun aggressive, routine 
assaults on key Pakistani targets, including the attack on Pakistan's 
military headquarters in Rawalpindi last weekend.
    Propaganda plays a major role in the extremists' campaign for 
dominance. Indeed, the Taliban aims to project power and control as 
much as actually to wield power and control. As Admiral Michael Mullen, 
Chairman of the Joints Chief of Staff has written, ``Each beheading, 
each bombing and each beating sends a powerful message or, rather, is a 
powerful message.''
    Taliban propaganda traffics in lies and outright distortions. 
Richard Holbrooke, U.S. Special Representative for Afghanistan and 
Pakistan, has told the story of a Pakistani Ambassador kidnapped by the 
Taliban who challenged his captors in dialogue to show him where in the 
Koran suicide bombings were justified. When they retrieved a copy, they 
handed it to him, because they were illiterate. They had heard suicide 
bombings justified by Taliban propagandists on the radio.
    As Ambassador Holbrooke has urged: The insurgents' propaganda 
``needs to be dealt with head on. We can't concede the battle to the 
Taliban.''
    Radio is the dominant medium in the Afghanistan-Pakistan border 
region. Through radio, the insurgents pour out their disinformation and 
hate. Radio is the means by which BBG broadcasters can and will counter 
their propaganda--not with propaganda of a different sort, but with 
objective, comprehensive journalism that conveys factual, balanced news 
and information.
    BBG broadcasts in Dari and Pashto blanket Afghanistan, and our Urdu 
programming serves Pakistan nationwide. For the Afghanistan-Pakistan 
border area, we initiated in 2006 a dedicated service by the Voice of 
America, in the unique regional Pashto dialect, called Deewa Radio.
    Deewa focuses on local issues and produces 9 hours of daily 
programming, including live news, current affairs, call-in shows, and 
music. It transmits via AM, FM, and shortwave, with text and audio 
available on the Internet. Of the 9 hours of programming, 3 were 
recently added in a surge to provide a morning program to complement 
Deewa's nighttime hours.
    Data on Deewa's audience from the BBG's first audience survey in 
the region are just now coming in. An earlier study by the U.S. Agency 
for International Development suggested Deewa had a wide following. We 
see robust audience reaction everyday in some 400 listener phone calls 
to on-air discussion programs.
    This initial feedback and other qualitative research indicate that 
local Pashto speakers, mostly in Pakistan but on the Afghan side of the 
border as well, seek engagement--they want their voices heard. 
Certainly the back-drop is Taliban propaganda, but also the relative 
isolation in which the region's inhabitants live with little 
opportunity for political expression. Deewa is giving them a voice.
    One listener in the Swat Valley said Deewa Radio was ``the only 
source of information'' there. Many listeners in the regions of 
Waziristan, Swat, and Bajaur have told the station that they plan their 
activities around Deewa's broadcasts.
    Key to Deewa's success is what has worked so well in Afghanistan--
news and information tailored to the audience's needs and interests. 
The station maintains a network of some 25 local stringers who file a 
steady stream of reports such topics as the Pakistani military's 
campaign against Taliban forces and those displaced by Taliban threats 
or combat.
    But it is not only political news that interests the audience. 
Focus group research in Pakistan among Deewa listeners shows they want 
a broad-based information service that touches on social and cultural 
issues and developments as well. The research also shows that 
Pakistanis who otherwise dislike the United States will listen to 
broadcasts under the VOA brand--provided they observe strict 
objectivity.
    Those who are internally displaced as a result of Pakistan's 
military campaigns against the Taliban also find a voice in Deewa. A 
refugee in the Swabi Mansoor camp said during a recent program, ``If 
Deewa was not here, (we, refugees) would have been disgraced, 
destroyed, unknown to the world. It is Deewa which talks about (our) 
problems . . . ''
    As a result of their uncompromising reporting, VOA stringers have 
been repeatedly threatened by Taliban militants--and some of the 
threats have been realized.
    In July, the home of VOA Deewa reporter Rahman Bunairee was blown 
up by men declaring their allegiance to the Taliban and claiming 
retaliation against reporting by VOA. Mr. Bunairee escaped to Islamabad 
and eventually to the United States, where we now hope to continue his 
service to Deewa.
    Deewa has done and will continue to do its excellent work. With the 
rise in the insurgency and its increased propaganda efforts, however, 
further BBG support for broadcasting to Afghanistan-Pakistan border 
region is on its way.
    Earlier this year, to complement Deewa, Congress endorsed new RFE/
RL Pashto broadcasts for the border region. Working in cooperation with 
Voice of America's Deewa Radio, the new Radio Azadi will broadcast 6 
hours daily. With reporters on both sides of the border and throughout 
Pakistan, and with a bureau, security permitting, in Peshawar or 
another city, the new service will reach out and begin to combat the 
radical broadcasting in Pakistan.
    Once fully operational, Azadi will have the capacity to send 
headlines and breaking news to listeners via mobile phones and SMS text 
messages. Cell phone ownership is widespread in both Afghanistan and 
Pakistan, and while less so in the border region, the new text 
messaging capacity will nonetheless let the BBG engage people well 
beyond the reach of insurgent broadcasters.
    We at the BBG are deeply aware of what is at stake across 
Afghanistan and Pakistan and are committed to ensuring that the people 
of the region have continuous access to timely and accurate news about 
the events around them. Through our dedicated services, we provide the 
antidote to the violent messages and lies of the insurgency.

                               CONCLUSION

    BBG broadcasters are an independent yet integral part of a global 
U.S. Government communication effort that seeks to advance U.S. 
national interests. In both Iraq and Afghanistan, there are scores of 
State and DOD public diplomacy and strategic communication activities. 
And yet U.S. international broadcasting has a distinct niche--objective 
journalism.
    Our experience in Iraq and Afghanistan has yielded important 
lessons for broadcasting effectiveness. First, we play a critical role 
in countries like Iraq and Afghanistan that lack adequate press freedom 
and credible alternative media. Second, we succeed when (a) we deliver 
the news our audiences want and need to make informed judgments about 
their societies, and (b) we deliver our content via the media our 
audiences prefer and can easily access.
    This is a simple formula but one that requires deft, professional 
execution.
    At the end of the day, to recall the words of Vice President Biden 
at the commemoration of the BBG's independence in 1999, what we seek is 
to empower our audiences in their struggle for freedom and democracy.
    In Iraq and Afghanistan, our objective journalism arms our 
audiences against fear-mongering and propaganda of sectarianism and 
violent extremism. Consistent truth telling will, over time, trump fear 
and propaganda.
    We would be happy to answer any questions you might have.

    Senator Kaufman. Great. Thank you very much for that 
testimony.
    You know, when we first started broadcasting in the Middle 
East, U.S. international broadcasting, a lot of people said no 
one will listen to our broadcasting and no one will trust our 
broadcasting. Numbers like 56 percent in Afghanistan and 73 
percent in Iraq are really quite extraordinary.
    First, I would like your comment on, Is that truly 
extraordinary? And second is, Why do you think people listen to 
this broadcasting in such large numbers? And how important is 
it to have an audience of this size to fulfill your mission?
    Mr. Blaya. Well, as a domestic commercial broadcaster, 
generating audiences is the first indication that your 
programming is having an impact. The numbers for Iraq speak for 
themselves. The penetration that U.S. international 
broadcasting has in Iraq is beyond anyone's expectations. 
Distribution also has been a very important element of the 
success of our radio and television operations in Iraq. But 
fundamentally, we are providing people with the news and 
information that they want, with access to local information 
that they might not get from services that are sectarian or 
government-sponsored. I think the formula is the formula that 
has worked traditionally over half a century of U.S. 
international broadcasting.
    Senator Kaufman. Mr. Hirschberg.
    Mr. Hirschberg. Let me add one more thing. When you take a 
look at the independent research and you go to a place like 
Afghanistan and you see that when the questions are asked, are 
our programming and our broadcasts credible or mostly credible, 
you are in the 90th percentile and above combined on those two 
things as opposed to not credible or inherently not credible. 
They are either mostly credible or partly credible. That is an 
extraordinary comment upon the quality of the broadcasts and 
the reach and an indication as to why people listen because 
they find them credible and they find them independent.
    Senator Kaufman. Mr. Simmons.
    Mr. Simmons. Just to add to that, I also reinforce the 
point that Governor Blaya made about distribution. Our country 
has made a sizable investment in the transmission capability 
for our programming, and without it, we simply would not have 
this kind of an audience in Afghanistan that you referred to. 
So we have a medium wave, which is a large AM broadcast. We 
have FM broadcasting. We have television broadcasting. And I 
think the ability to access the population is a critical 
component of why our audiences are so high.
    Of course, I completely agree with my colleagues on the 
need for--the programming itself is--and I will say a second 
thing that was not mentioned, which is research is also 
critical to having a large audience. We have an extensive 
research program at the Broadcasting Board of Governors. Just 
like when you run for office, you want to have good polling 
organization to look at what the issues are, we as broadcasters 
need to know what issues are of concern to the audience we are 
trying to reach. And then when we do our programming, are there 
things that they do not like or that we could change, whether 
it is in the format or the issues we cover. So I think 
research, which has been done extensively in both of these 
countries, is important.
    And then third, of course, as my colleagues have said, is 
having good, objective journalism which in a lot of these 
places that we broadcast to around the world, especially in the 
ones we are talking about, has been hard to find, and we offer 
it.
    Senator Kaufman. Just a broad thing. How does this 
broadcasting of the Broadcasting Board of Governors reflect the 
foreign policy of the United States? What is the process you go 
through?
    Mr. Hirschberg. First of all, we are in contact with other 
branches of the Government, especially the State Department. We 
have a formal process at the BBG, as you know. Once a year, by 
statute, we consult with the State Department on the 
administration's priorities and where they would like to see us 
broadcast and where it may be not so important for us to 
broadcast. And we have a formal review process every year to 
determine which languages we broadcast in and which we should 
not broadcast in anymore and what the reach is of those 
language services, what the impact is of those language 
services, all in connection with the implementation of our 
strategic plan for 2008 to 2013.
    It is an iterative process. It is more than just once a 
year. We are in constant touch with the State Department and 
other branches of the Government, and we do have people in our 
professionals on the BBG staff who do sit in on policy 
discussions at the National Security Council and other places 
in the Government.
    Senator Kaufman. Can you spend a few minutes and just talk 
about how you maintain broadcasting quality?
    Mr. Blaya. Senator, I know this was, while you were at the 
BBG, always one of your main concerns, and you were the first 
person that described to me how it is that this was done. So I 
have it in front of me and I will go in details because of the 
importance that you have always placed on it.
    First of all, the United States was the first country that 
broadcast in the languages of the audiences that it wanted to 
reach, versus a BBC that was all in English.
    Second, it was essential that we have the native language 
capabilities, and that means up through the management chain, 
the regional division directors and editors all speak the 
native language.
    The second point was the editorial controls and guidance, 
which were established years ago. We rely on the expertise and 
judgment of language service heads and line editors to ensure 
that the news met the highest standards of professional 
journalism.
    Third, we have a performance review process which includes 
independent audience market research. We undergo rigorous 
annual review performed by an office separate from the language 
service itself. This review incorporates a wide range of 
research inputs produced independently by BBG global research 
programs.
    Fourth, we have specific program evaluations. We 
commission, when circumstances warrant, leading schools of 
journalism, as we have recently done with Missouri and 
Washington University and other expert bodies, to conduct 
specific in-depth programming evaluations. Over the years, 
these extraordinary reviews have provided incredible 
information and assessments of selective services, including 
MBN Russia and the Office of Cuba Broadcasting.
    Senator Kaufman. Thank you.
    Senator Wicker.
    Senator Wicker. Thank you very much. I appreciate the 
testimony so far.
    This is a hearing about broadcasting into war zones. Our 
goal in the war zones is to be successful in our military 
efforts.
    Put yourself in a town meeting in Dover or Tupelo and the 
taxpayers are asking about a budget of $682 million of taxpayer 
dollars and help us formulate an answer as to how we measure 
success in the use of the funds, particularly in Afghanistan 
and in Iraq. We have testimony today that truth serves the 
national interest. I think the taxpayers might be justified in 
saying show me how that concretely serves the national 
interest.
    I have heard you say today we are giving the people the 
news and information they want, a laudable goal. How does that 
help Americans in Dover and Tupelo? How does that justify the 
expenditure?
    ``A broad penetration,'' ``reach,'' ``credible 
broadcasts.'' Has it benefited our war effort at all? In the 
time we have been in Afghanistan, have we seen positive 
political trends toward the United States? Have we seen 
positive military trends because of what the BBG is responsible 
for? Have we won any hearts and minds?
    Mr. Simmons. With respect to--well, first of all, I think 
it is a good question and I think it is a question that should 
be asked about all of the programs that our Federal Government 
spends money on; $600-plus million is a lot of money.
    I think that in terms of the situation in Afghanistan, we 
have seen the Taliban/al-Qaeda forces using the media to 
propagate information that is not accurate, using radio 
stations, illegal radio stations, to broadcast information that 
distorts what is happening on the ground and what is happening 
in their country, that distorts the role of the United States 
and distorts the role of the Karzai government. And I think by 
our efforts, we act as a counterweight to that.
    I would point you to polling data. We can supply it offline 
to you and the committee that does indicate that the attitudes 
of the Afghan people toward what American forces are doing are 
positive and what the Taliban/al-Qaeda are doing are negative.
    Senator Wicker. This would be what polling company?
    Mr. Simmons. This is a polling that we research, that we 
hire researchers for.
    Senator Wicker. Commissioned by the BBG.
    Mr. Simmons. Correct, yes.
    Senator Wicker. OK. Well, I ask unanimous consent that Mr. 
Simmons be allowed to supplement his answer with that 
information.
    Senator Kaufman. Without objection.
    Senator Wicker. Go ahead.
    Mr. Simmons. So I think we play a role by doing that and 
providing accurate information in that war zone.
    And in the border region, just quickly, there have been a 
number of stories about the same phenomenon going on on the 
Pakistan side of the border with the Taliban. We hope that 
Radio Deewa, which has now gotten increased distribution in the 
last few months, will play a similar role there as well.
    Mr. Hirschberg. Let me add to that. Just let me start with 
Alhurra television for a moment in Iraq before I go on to 
Afghanistan.
    Prior to 2004, when it came to television in the Middle 
East, the United States was not on the playing field. We were 
up and running within 5 months of funding on a 24/7 stream for 
the 22 Arab-speaking countries and to Iraq and a separate 
stream for Iraq, as Mr. Blaya has testified about.
    It would be unfortunate----
    Senator Wicker. That was at the request of the State 
Department, no doubt.
    Mr. Hirschberg. That was at our initiative.
    Senator Wicker. Your initiative, OK.
    Mr. Hirschberg. And Radio Sawa, prior to 9/11, was at our 
initiative as well, although RFE/RL to the border regions of 
Afghanistan and Pakistan in this go-round is a congressional 
initiative that was basically sponsored by Senators Lieberman 
and Kyl, the additional funding for that $10 million.
    We were nowhere on the field then. Our competitors, just by 
way of example, are expending an extraordinary amount of money 
to compete our broadcasts. Al Jazeera has--although we do not 
know quite what the number is, but we expect it is north of 
$300 million--45 bureaus to do their broadcasts. We have four. 
The Russians have upped their spending on international 
broadcasting in Arabic and other languages. It has been 
reported recently that the Chinese Government has committed $6 
billion to communications.
    The BBG does not do messaging. Our broadcasters do not do 
messaging. So if you are asking for a one-to-one correlation as 
to whether or not for every dollar we spend we can change 
hearts and minds, we cannot do that for you. We cannot give you 
that. That research is not available to us.
    But what is available to us is that we know we have an 
impact. We know that people like our broadcasting. We know that 
people listen to our broadcasting. We know that people call 
into our broadcasting. We know that they participate. We know 
that we are engaging their publics in a way and through 
targeted research that has never been done before. So from that 
standpoint, we think that indirectly we do have that kind of 
impact that you are looking for.
    Mr. Blaya. Now, let me add to that, Senator, because if we 
did not exist, MBN would have to be created. And I will give 
you just three recent reports, for example, even though I will 
start from the very beginning that you do not talk about 
competition. You do not use your time to talk about your 
competitor, but in this case I will because it brings the point 
that Governor Hirschberg was describing home.
    In a recent case, Samir al-Kuntar was convicted in an 
Israeli court for murder of an Israeli policeman, Eliyahu 
Shahar, a 31-year-old, Danny Haran, and Haran's 4-year-old 
daughter. He spent nearly 3 decades in prison before being 
released as part of the Israeli-Hezbollah prisoner swap. Al-
Kuntar was considered a national hero by some Lebanese, and he 
was given a hero's welcome upon his return. Al Jazeera threw an 
on-air birthday party for the released Lebanese terrorist.
    On one of the post popular shows that Al Jazeera has on a 
regular basis--it is called ``Opposite Directions''--the host 
repeatedly claimed that 98 percent of Americans hate muslims 
without providing any source or statistics.
    And I should stop there because I could give you a list of 
things that occur on a regular basis on the main voice in the 
Middle East, therefore, the importance of us providing the 
other side of the story and the news that people would never 
hear if we were not there.
    Senator Wicker. Thank you very much.
    Senator Kaufman. Senator Shaheen, can I just ask one point 
before you question?
    Senator Shaheen. Sure.
    Senator Kaufman. In these areas, where would people hear 
U.S. policy on any issues if U.S. international broadcasting 
was not there?
    Mr. Blaya. Well, let us go back to the 2008 election in 
which Alhurra and Sawa did extraordinary coverage of the whole 
electoral process in the United States, providing a window as 
to how democracy operates with extended coverage of local 
elections to the national stage, to the Republican and 
Democratic conventions, providing a window to many of the 
societies as to how a democracy operates and how we can have 
divergent points of view is an extraordinary case of allowing 
them access to something that they will never see in the worlds 
they live in.
    In the case of the newest show of the Alhurra television 
network, Al Youm, which I covered earlier, as important as it 
is to provide news and information about the world and the 
United States, this show is serving as a unique platform in the 
region for voices of modernity, discourse, different opinions, 
for Arab nations to be able to talk among themselves on issues 
of interest, of women's rights, of freedom and democracy, of 
human rights, things that we take for granted in the United 
States but will not be seen. You will not see issues of women's 
rights in Al Jazeera. You will not see them in Arabiya. We 
serve as a unique platform in the region not only for us 
telling those audiences our perspective, but for them to tell 
their new perspectives and ideas to each other.
    Senator Kaufman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
for appearing here.
    I would like to follow up a little bit more with what 
Senator Wicker has raised relative to how do you measure 
success of the broadcasts. You have talked about some of the 
anecdotes and about your own internal efforts to research among 
the population what the listening audiences are.
    Are there other ways that you should be thinking about to 
measure success, and what are those? And are you looking at 
doing anything else in the future?
    Mr. Simmons. Well, the measures that we look at are, first 
of all, what is the reach, how many people do we reach. So 
audience-measure is very important. Second, we look at what the 
audience thinks about our broadcasting, are we reliable, are we 
trustworthy. So I think in those two areas, we can have a 
pretty good measurement of how many people are listening and do 
they think we are trustworthy.
    Third, in answer to yours and also Senator Kaufman's 
question, one of the Voice of America's mandates is we are to 
cover American foreign policy and we are to cover America and 
its institutions and its people. And there is so much 
misinformation about America in a lot of the places we 
broadcast to about what our policies are and who we are as a 
people, that we consider it important to convey programming 
that sets the record straight with our policy and sets the 
record straight with what the American people think.
    For example, Governor Blaya pointed out Al Jazeera 
broadcasts. We are not 98 percent anti-Muslim. We run shows on 
VOA on a regular basis about how muslims live in America, and 
we profile them and try to make it sort of a reality show to 
show that there is not the kind of situation for them that is 
perceived abroad.
    So those are some of the ways we measure impact. It is 
difficult to--and I will just close and hand it over to my 
colleagues. But it is difficult to, as Governor Hirschberg 
said, sort of say you are changing attitudes in a particular 
place because the attitudes toward America and what we are 
doing are affected by so many different things.
    Senator Shaheen. Sure.
    Mr. Simmons. I mean, if people do not like our attitude 
toward an Arab country or whatever policy, whatever we 
broadcast--I mean, they are going to continue to have that 
attitude.
    Senator Shaheen. Let me just follow up on one of the things 
you said. Excuse me, Governor Hirschberg.
    You talked about do people trust what they are hearing in 
the broadcast. How do you determine that, given the difficulty 
of polling research in places like Afghanistan where it is very 
hard to be in touch with your audience on the one hand and, on 
the other, to determine any sort of objective sample for who is 
listening?
    Mr. Hirschberg. Senator, I am delighted you asked the 
question. We are in touch with our audience. We are in touch 
with them and interact with them through our programming on a 
daily basis.
    But the manner in which we measure not just impact and 
reach but understanding as well is through independent 
research. We contract with Intermedia and they contract with 
A.C. Nielsen, IPSOS, and other independent research 
organizations to conduct their research for us. If we did this 
ourselves internally, nobody would believe us. So we do have 
independent organizations that go out and research this for us. 
And the research measures things that we have already talked 
about and it informs our programming. If we need to change 
programming, modify it if we have to look for new audiences or 
reach audiences in different ways, our research does that as 
well. So it is independent of us.
    Senator Shaheen. So who makes those programming decisions?
    Mr. Hirschberg. Our professional journalists make those 
programming decisions and the language services. As board 
members, we do not.
    Senator Shaheen. You talked about the broadcast directed at 
the border regions in Afghanistan and Pakistan. How much of 
greater Pakistan is listening to the programming?
    Mr. Simmons. Well, the board took the initiative several 
years ago to create a program that would reach all of Pakistan. 
At the time, we had a very small audience. And we first created 
a radio network called Radio Aap ki Dunyaa, which in Urdu means 
Your World Radio. And it is an AM signal, and now it reaches 
all of Pakistan. It has about 6 million listeners that listen 
at least once a week. Radio is more popular in the rural areas. 
So that is where that is focused for the most part.
    And then we said, well, we want to look at the urban areas, 
and we created a television program called ``Beyond the 
Headlines'' which runs every night five nights a week for half 
an hour on GEO, which is the most popular cable network in 
Pakistan. And that also reaches close to 6 million viewers at 
night.
    So together they reach between 11 million and 12 million 
people every week.
    We have recently--and by recently, real recently, in the 
last few weeks--agreed with the Pakistan Broadcasting 
Corporation to carry the radio station not just on this AM 
network, but on FMs throughout the country. So I think the 
audience will increase.
    So that is the mechanism and those are the audience 
figures. We do not have exact audience figures for the border 
region, which you asked about. We are the only international 
broadcaster now reaching that region in Pashto, which is the 
language spoken there. And we are doing research right now. So 
we will have that answer for you. But everything we get back is 
it is widely listened to and widely respected. Again, it is the 
only international broadcaster that is really bringing this 
news comprehensively in a balanced way.
    Senator Shaheen. Thank you. My time has expired, Mr. 
Chairman.
    Senator Kaufman. Are you using the same techniques in 
general that were used during the cold war and the Second World 
War?
    Mr. Hirschberg. You mean the same techniques for----
    Senator Kaufman. Same types of techniques.
    Mr. Hirschberg. No. The world has changed. We have an 
Internet, which we did not have then. We have television which 
we did not have then. We have SMS which we did not have then. 
We have podcasting which we did not have then. We have Internet 
streaming which we did not have then.
    The goal of the BBG is to deliver appropriate programming 
on multimedia independent platforms wherever we can do so. In 
some places of the world, we have the resources to do all it. 
In other parts of the world, we only have the resources to do 
one of those delivery platforms, and in some parts of the 
world, only one delivery platform is appropriate because the 
rest of it, for the most part, does not exist. So it really 
depends upon which country we broadcast to or which language 
service we are talking about.
    Senator Wicker. May I interject?
    Senator Kaufman. Sure.
    Senator Wicker. How many of those exist in Afghanistan?
    Mr. Hirschberg. Radio is the most popular medium by far.
    Senator Wicker. Internet at all?
    Mr. Hirschberg. I think it is roughly 3 to 4 percent maybe. 
Not even that high? It is not even that large?
    Senator Wicker. Cell phones?
    Mr. Simmons. Cell phones are about--in Afghanistan, 
Internet is not a factor. So we cannot really use that 
mechanism. Almost 50 percent of the population is estimated to 
have a cell phone. We are right now working on methods to reach 
the audience that uses cell phones. One thing that we have to 
keep in mind is there is a very large illiteracy rate in 
Afghanistan. So we cannot do texting as much as we might think. 
So we are looking at, can we do audio streaming and that kind 
of thing in addition to texting.
    Senator Wicker. And hardly any television.
    Mr. Simmons. We do have television in Afghanistan. It is 
not as popular, as Governor Hirschberg indicated. Over 90 
percent of the population owns a radio. About 49 percent own a 
television. So we do about an hour per night of television, 
which we just began a couple of years ago, called TV Ashna. It 
is popular, and we get a significant amount of viewing from it. 
But most of our listenership at this point in Afghanistan still 
comes from radio.
    Senator Kaufman. Spend a few minutes, because I think 
Senator Wicker has asked a very, very important question, about 
what do you say when you are in a town meeting in Tupelo or any 
other town.
    So during the cold war, there were questions about the 
effectiveness of U.S. international broadcasting. What did we 
find after the cold war was over in terms of people's reaction 
to how effective United States international broadcasting had 
been to bring about changes in the former Soviet Union?
    Mr. Hirschberg. Well, if you talk to Mikhail Gorbachev, 
Boris Yeltsin, Lech Walesa, Vaclav Havel, any number of the 
people that we have talked to over the years, you know the 
effectiveness of U.S. international broadcasting because it has 
been widely credited with helping end the totalitarianism of 
that period. And indeed, in 1993, Boris Yeltsin gave Radio Free 
Europe/Radio Liberty a special decree to broadcast in Russia as 
a result of that, and that, unfortunately, was revoked by 
President Putin some 10 years later. But, nonetheless, for the 
10 years that it was there, Radio Free Europe/Radio Liberty had 
a special place in Russia. Voice of America had a special place 
in Russia and in the former Soviet Union as well, a very 
special place.
    And not just anecdotally, but when you have the number of 
people that even today come up to governors of U.S. 
international broadcasting or our broadcast entities and say 
that--you have to be of a certain age now--but say that during 
those years they would miss everything but one of our 
broadcasts, you know the effectiveness it has had.
    We are experiencing around the world today the same type of 
reaction to U.S. international broadcasting. You know, Senator 
Wicker, I am from Oshkosh, WI, not from Tupelo, MS, but I have 
to answer the same types of questions. And I look at U.S. 
international broadcasting and part of the problem with U.S. 
international broadcasting is it does not have a wide domestic 
constituency. That is because of Smith-Mundt, we are prohibited 
from broadcasting within the confines of the continental United 
States. But I think our constituencies in Congress and in the 
countries that we broadcast to, in the State Department, within 
the military who understand what we do are very high and very 
strong.
    Senator Kaufman. Can you kind of tell us what the 
difference is between broadcasting like PSYOPs where you take a 
basic message that the Government has and put it out as opposed 
to the kind of broadcasting we do in terms of effectiveness and 
which one would be more effective in your opinion in 
Afghanistan and Iraq?
    Mr. Hirschberg. Well, I really would prefer not to comment 
on the Department of Defense's PSYOPs.
    Senator Kaufman. No. I am not talking about the Department 
of Defense's PSYOPs, but just the concept of broadcasting 
propaganda.
    Mr. Hirschberg. Well, I think people lose their taste for 
it after a while once they recognize what it is. Our mission 
statement is very simple and it is in a sentence. For those 
that have not remembered it or need a reminder like I do, I am 
going to tell you what it is, and it is in one sentence. ``To 
promote freedom and democracy and to enhance understanding 
through multimedia communication of accurate, objective, and 
balanced news, information, and programming about America and 
the world to audiences overseas.''
    We are a straight journalistic organization that provides 
objective news and information and balanced news and 
information in the American tradition. And we believe that when 
we do that, our research figures and our audience figures show 
the audiences to which we broadcast and communicate find us 
credible.
    Senator Kaufman. And how would you characterize the 
movement of free press around the world? Are most countries 
getting freer in their press and do not need as much of what 
the U.S. international broadcasting does, or is it more?
    Mr. Hirschberg. It is in retreat. Free press is in retreat 
around the world. In one of my other iterations, as you know, I 
am a trustee of Freedom House, and our latest analysis for 
freedom in the world in 2009, nations in transition, 2009, all 
shows a retreat of press freedom in the world; not enhancing 
press freedom in the world.
    So in my personal view and I think in the view of all of us 
on this board, our existence is mission-critical to U.S. 
strategic and foreign policy interests, and it would be a shame 
to have it diminished in any way.
    Senator Kaufman. How important is it to broadcast in the 
local language?
    Mr. Hirschberg. In certain places in the world, it is 
absolutely critical because in the vernacular for the surrogate 
broadcasters, Radio Free Europe, Radio Liberty, Radio Free 
Asia, in some cases Mideast Broadcast News, and in some cases 
places in the world, Voice of America provides that function as 
well. And so does Office of Cuba broadcasting. But it is 
critical because those populations do not--there is no free 
press in most of these places, and they do not obtain from 
their own press, from their own media domestic sources balanced 
and objective news and information about their own populations. 
That was true in the Soviet Union. It is true today in other 
places of the world in which we broadcast.
    Senator Kaufman. Governor Simmons.
    Mr. Simmons. Just to quickly add that I completely agree 
with Governor Hirschberg. I would just add that there still is, 
we believe, an important role for English to be broadcast 
around the world, and in certain places we maintain our English 
broadcasts because there is an audience there. We think it is 
important to keep it on the Internet. So, yes, we need to 
emphasize and put most of our focus on the vernacular 
languages, but we still feel there is a role for English.
    Senator Kaufman. Senator Wicker.
    Senator Wicker. Thank you, and I appreciate your in-depth 
answers to all of these questions.
    Let me just ask some brief questions, sort of a cleanup. 
Are we getting all of the cooperation from the Governments of 
Iraq, Afghanistan, and Pakistan with regard to access rights? 
Anyplace we have asked to broadcast which we are not getting 
full cooperation?
    Mr. Simmons. I will speak about the Afghanistan/sort of 
Pakistan region, and I will let Governor Blaya speak about Iraq 
or the Mideast if you want to broaden it because the question 
was broad, a little bit.
    We have gotten cooperation, but there have been challenges. 
For example, right now we have a transmitter that is vital to 
broadcasting to the border region. We have spent funds on it. 
We can have this transmitter turned on, Senator, in a matter of 
weeks, and the Minister of Information in Afghanistan is 
holding us up and not allowing us to do this despite the 
agreement previously to allow us to do it.
    Senator Wicker. A member of the Karzai administration.
    Mr. Simmons. Correct. Exactly correct. And we have asked 
repeatedly. The State Department has asked repeatedly on our 
behalf. And it is very disappointing, given the sacrifice that 
this country is making in the Afghan theater in terms of 
resources and blood, to have this kind of lack of cooperation 
from a member of the Karzai government. So that is one area----
    Senator Wicker. What justification do they offer?
    Mr. Simmons. None really. It is just bureaucratic delay. We 
are not given any real rationale. It is sort of paper 
shuffling, to be honest. If there was an explanation, at least 
we could have a debate about it. I mean, it has been approved 
up until the stage of being turned on. So there was some 
discussion about them wanting to control everything that went 
out on the transmitter so that if there was anything ``anti-
Afghan''----
    Senator Wicker. That would be different from what we have 
agreed to in every instance. Would it not?
    Mr. Simmons. Yes. We cannot be at the whim of a bureaucrat 
to sort of tell us you cannot broadcast that. We have to be 
independent journalists, and we broadcast throughout 
Afghanistan, as we have talked about before, without that 
measure. For whatever reason, this is being thrust our way at 
this point with this particular transmitter.
    Senator Wicker. Are there any informal fees that need to be 
paid or are being requested?
    Mr. Simmons. I will let my brother----
    Mr. Hirschberg. Absolutely not, not by us. So the answer to 
that is ``No.'' The State Department is the transmitter----
    Senator Wicker. So that is never raised by another 
government because they know that it is absolutely out of the 
question.
    Mr. Hirschberg. Well, they know that it is forbidden under 
the United States Foreign Corrupt Practices Act. In every one 
of the BBG contracts for transmission, whether it is from the 
International Broadcasting Bureau or any of our other entities, 
there is a statement in the agreements that no fees have been 
paid. So we get a commitment on that. That is not the problem 
here.
    I must say the State Department has been extremely helpful 
to us. Ambassador Holbrooke has been personally very helpful to 
us, and right now we are just stymied. We cannot get that 
transmitter turned on.
    Mr. Simmons. And I also might add that the Congress was 
generous, as has been mentioned before, in authorizing and 
appropriating $10 million for a service that is to use that 
transmitter. Enough said, but that is the situation there.
    In Pakistan, generally in the border region--Pakistan now 
has opened up a lot for us. So under President Musharraf, we 
had a lot of regulations that were very difficult. It is still 
a difficult place in terms of freedom of information, but at 
least we are now able to lease these new FMs I talked about 
throughout Pakistan and broadcast news.
    Otherwise, I think we, in Afghanistan, have had pretty good 
cooperation, aside from what we just talked about.
    Do you want to talk about Iraq, Governor Blaya?
    Mr. Blaya. Well, Iraq and the Middle East is a different 
picture. In spite of the fact that they are closed societies 
and nondemocratic, through the magic of satellite, you have 
open distribution in the whole region for television and 
obviously through our FM stations in-country, as I described.
    The one country in the Middle East, a major player in the 
Middle East, where we do not have access is Egypt. Not the 
over-the-air transmission, the satellite transmission on 
television, but the opportunity to originate locally through FM 
or AM stations within-country.
    Senator Wicker. Well, I really did not expect that question 
to require that extensive of an answer, but I appreciate that.
    Let me just ask: Voice of America had a seminar in Kabul, 
as I understand, on October 7. How out of the ordinary is that? 
I was surprised to learn that we did anything other than 
broadcasting, but I was told that Voice of America did a 2-day 
seminar on counternarcotics. Do we hold other seminars on other 
topics? Is my information correct there?
    Mr. Simmons. We had a seminar financed by a State 
Department grant on narcotics, and we have--are you asking 
about programming on narcotics or seminars or----
    Senator Wicker. Well, I was just surprised to learn that 
you were doing anything other than broadcasting; and holding 
this seminar, a 2-day seminar on counternarcotics, would seem 
to me to be a bit of an expansion of your mission. And so I 
thought I would let you respond to that on the record.
    Mr. Simmons. Yes. My understanding, Senator, is that the 
seminar was actually to train journalists on how to cover the 
issue of narcotics. So it was related to media training.
    Senator Wicker. Very well.
    And then finally, public diplomacy is approached by three 
other agencies, State, Defense, and USAID and in different 
ways. I am told that under the statutes and the way that State 
is organized, the public diplomacy activities of State, DOD, 
and USAID are coordinated by Richard Holbrooke, the Special 
Representative for Afghanistan and Pakistan. To what extent are 
you all in on that discussion? Is Mr. Holbrooke and is his 
office part of the coordination effort that might include the 
BBG, as well as State, DOD, and USAID?
    Mr. Hirschberg. If the question is, Are we in the room from 
time to time? the answer is ``Yes.'' If the question is, Does 
the State Department or Ambassador Holbrooke suggest 
programming or content to us? the answer is ``No.''
    Senator Wicker. They suggest coverage and the area of the 
world where they would like you to be, but they do not 
suggest----
    Mr. Hirschberg. Content.
    Senator Wicker [continuing]. The content.
    Mr. Hirschberg. That is correct.
    Senator Wicker. Thank you very much.
    Senator Kaufman. Thank you, Senator Wicker. I really 
appreciate you being here, and you have brought a lot to this 
discussion.
    I just want to thank everyone for participating today. 
Hopefully we will do this again in another area of the world. 
Obviously, in Afghanistan and Iraq, since we have our troops in 
harm's way, this is the most important thing that we can 
possibly be working on. I think it is really extraordinary that 
when you have two countries where you have 56 percent of the 
people in one country and 73 percent of the people in the other 
country listening to U.S. international broadcasting on a 
regular basis and getting both sides of every discussion, also 
programming about the United States and especially in an area 
of the world which, as was stated by the board, more and more 
it is becoming the case where there is no statement of our 
policy--many places in the world, they hear nothing about what 
American policy is; what American policy has done.
    I have just got to tell a short story. And that is I was in 
China right after the missile hit the Chinese Embassy in 
Belgrade, and people say, well, why is it important to be 
broadcasting into China? Obviously, China does everything to 
stop us from broadcasting.
    But I was in China. I spoke to a lot of people and people 
in the government, and the constant refrain I had about the 
missile and the Belgrade Embassy was, OK, we understand 
accidents happen. But why did President Clinton never 
apologize? I said, President Clinton went on national 
television in the United States and around the world and 
apologized at great length, but no one in China ever heard the 
apology. In many of these places of the world, if it was not 
for U.S. international broadcasting, the people would never 
hear what any of our public officials have to say on absolutely 
anything.
    So I think that, in addition to being the model of a free 
press in every country of the world that we broadcast into, 
people at least know what a free press is. In many places in 
the world, they have never had a free press. They have no 
understanding of free press. When you talk to their 
journalists, they have no idea what a free press is. So another 
important factor.
    But I want to thank you for what you do, and I know what an 
incredible sacrifice all, past and present, BBG broadcasters 
have made. Blanquita Cullum cannot be here today, but we have 
had a number of folks over there who have made a contribution. 
So I want to thank you all.
    I will leave the record open until 4 o'clock tomorrow, 
Friday, October 16, for any additional questions or statements 
that people want to make.
    With that, I adjourn the hearing.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Joaquin Blaya, Jeffrey Hirschberg, and Steven Simmons, 
Broadcasting Board of Governors, Washington, DC, to Questions Submitted 
                             for the Record

              QUESTIONS SUBMITTED BY SENATOR JOHN F. KERRY

    Question. The BBG's 2008-13 strategic plan calls on the BBG to 
cooperate more closely with U.S. Government agencies engaged in public 
diplomacy. This would mark a significant departure from past practice. 
Why did the BBG choose to make this change and what steps is the BBG 
taking to work more closely with U.S. public diplomacy?

    Answer. U.S. international broadcasting has always been engaged 
with the broader U.S. Government public diplomacy community. Under 
USIA, the Voice of America carried out its role under its charter that 
prescribed accurate, objective, and comprehensive journalism. Today, 
under the BBG, this journalistic mandate is prescribed for all BBG 
broadcasters. Yet the U.S. International Broadcasting Act did not 
intend that the broadcasters become ``unmoored'' from the broad 
objectives of American policy. The Secretary of State's membership on 
the BBG board, with the Under Secretary for Public Diplomacy and Public 
Affairs acting as her designee, provides for active participation by 
the State Department in BBG board meetings and decisionmaking. The 
Under Secretary receives all memoranda and other communications sent to 
board members.
    The BBG also recognizes that U.S. international broadcasting is a 
vital USG public diplomacy program, albeit one with a distinct role: 
objective journalism. In any given country or market, especially in 
conflict zones, BBG broadcasting is but one of often many USG 
communications activities. It benefits the BBG, and the U.S. Government 
as whole, for the agencies carrying out these activities to know what 
one another is doing and how each is contributing to overall USG aims.
    In furtherance of the strategic plan objectives, the BBG has become 
over the last several years actively engaged in interagency planning 
for public diplomacy and strategic communications and has taken the 
lead in sharing research data and analysis. The BBG has a seat at the 
table for the weekly Interagency Policy Committee meetings chaired by 
the National Security Council and is otherwise active in numerous 
governmentwide strategic coordination efforts. For the last several 
years, the BBG has cochaired an interagency research working group, has 
developed a Web-based, searchable database of BBG global audience and 
market data for governmentwide access, and has cosponsored 
communication research seminars on the priority countries of 
Afghanistan and Pakistan (with more planned for the future) to inform 
PD/SC strategy for practitioners and policymakers alike.

    Question. Despite some recent improvements in program quality, 
Alhurra has been widely criticized for being ineffective at reaching 
Middle Eastern audiences. According to critics, the Alhurra brand is 
now so tarnished that the United States should stop spending tens of 
millions of dollars each year on this broadcasting outlet. How do you 
respond to these critics? How likely is it that this tarnished brand 
can penetrate an incredibly competitive media market in the short to 
medium term?

    Answer. According to international research firms including 
ACNielsen, Alhurra has a weekly reach of more than 26 million people. 
Alhurra is penetrating the incredibly competitive media market across 
the Middle East. As noted in our testimony before the committee, 
Alhurra is the fourth leading TV channel in Iraq among hundreds of 
channels available by satellite and locally with 32 percent daily, and 
64 percent, weekly reach. Alhurra is among Iraqis' top choices for news 
and information on TV. This is not an indication of a tarnished brand 
in a competitive marketplace. Research also states that audiences find 
the programs trustworthy, and increase their understanding of America. 
For example in Iraq, nearly two-thirds (63 percent) of Alhurra's weekly 
audience finds the news to be credible. A majority of those who watch 
Alhurra have also reported that Alhurra has increased their 
understanding of U.S. policies (64 percent) and increased their 
understanding of current events (66 percent). These measures are 
derived from surveys taken by independent research organizations such 
as ACNielsen.
    When the Middle East Broadcasting Networks were formed, there was a 
pressing need to revamp U.S. broadcasting to the 22 countries of the 
Middle East. At that time, VOA shortwave broadcasts to the region 
reached a very small audience (approximately 2 percent). Today, we are 
broadcasting 24/7 via radio and television and have transmission 
agreements to broadcast locally in countries such as Iraq, Jordan, 
Kuwait, Bahrain, Qatar, UAE, Djibouti, and Cyprus, as well as via 
satellite on NileSat, ArabSat, and EutelSat.
    Confusion over the reach of Alhurra may stem from citations from 
other research that is designed to measure the ``most popular'' 
stations in the Middle East, rather than to measure sustained 
viewership. These polls do not probe frequency of media use, and thus 
do not derive an audience measure. Instead, they ask what station the 
viewer tunes to first. In contrast, the BBG gauges audience reach and 
addresses actual media consumption. Millions of Arabs for whom Alhurra 
is not their first choice for international news nonetheless watch the 
channel. Indeed, BBG research shows that Arabs routinely consult 
multiple sources, far more than two, for news and information.
    While it is a rare instance in which the programming of a U.S. 
international broadcasting entity, broadcasting in any medium, ranks 
among the most popular broadcasters in a particular market overseas, 
this happens to be the case for Alhurra in Iraq and for RFE/RL in 
Afghanistan. Alhurra figures among the top 20 stations in each of the 
14 markets where the BBG has done research--except in Saudi Arabia, 
where it is 21st.

    Question. At a time when other critical broadcasts are being cut 
(for instance, VOA Russia just days before the war with Georgia) could 
U.S. broadcasting agencies spend these resources more effectively on 
other activities, such as supporting independently generated content 
that could be broadcast on local satellite channels? Should we be 
spending our resources on putting more U.S. policymakers on programs 
that are widely watched throughout the Arab world, instead of creating 
a weaker competitor?

    Answer. Having radio, television, and Internet programming on the 
air 24 hours a day provides a consistent source of accurate news and 
information and a place to turn for context and explanation of the 
United States and its policies. This opportunity is not limited to when 
we are able to book a USG official on air, or when the foreign-owned 
station will air it.
    The BBG funds programming that must meet its journalistic 
standards, and that can be distributed via channels that it can 
control. Certainly the USG can, and does, fund the creation of 
independently generated programming that can be placed on local 
channels. We are not aware of any research that tracks the 
effectiveness of such programming, or the frequency with which such 
placements are made. We do not see this as an either/or proposition, 
but very different communications strategies. And there is room for 
both.
    Alhurra and Radio Sawa have substantial audiences in the Arab 
world. Radio Sawa continues to be one of the top-rated radio stations 
in countries where it can be heard via FM transmitters. Alhurra is the 
third most popular pan-Arab news channels in the region, exceeding the 
audience of BBC-Arabic, Russia Today, France24 and all other 
nonindigenous pan-Arab news channels. Alhurra and Sawa news reports are 
increasingly picked up by prominent local media and utilized either on-
air, in print, or posted on the Internet. Within 24 hours of Alhurra's 
interview with Secretary of State Clinton on November 3, there were 
over 30 media pickups by other press organizations in or covering the 
region, including by the BBC, AFP, Elaph, Alquds, Almanar, Assafir, Now 
Lebanon, Alwatan, Palestine Voice, and Iraq of Tomorrow. This is a 
strong impact indicator. In an important marketplace such as the Middle 
East it is important not only to have USG voices throughout the media, 
but also to control when the interview airs and the context of the 
interview. The media in the region is not truly independent; it is 
strongly influenced by Arab governments, either directly or indirectly. 
America needs its own voice in the Middle East.
    There have been reductions in some areas of U.S. international 
broadcasting, such as to Russia, and increases in investment to the 
Middle East, Iran, Afghanistan, and Pakistan. To a large extent, the 
changes to broadcasting to Russia reflect realignments of the agency's 
broadcast strategy, as well as market realities. The BBG has two 
broadcast services that provide programming in Russian: VOA and RFE/RL. 
Only a few years ago, these broadcasts were carried over a robust 
network of AM and FM ``affiliate'' stations--private stations with 
which the BBG cultivated a relationship to carry VOA and RFE/RL 
programs. These stations were key to delivering programming in a 
marketplace where shortwave broadcasts were drastically declining in 
popularity. During the Putin years, these affiliates were threatened 
with the loss of their broadcast licenses if they continued to 
broadcast the programming of VOA and RFE/RL. Some 90 BBG AM and FM 
affiliate stations were reduced to, literally, a handful. After an 
evaluation of the new broadcast realities, the agency proposed to 
migrate VOA toward an Internet delivery platform, (utilizing audio and 
video feeds) given the growth of that media in the region. RFE/RL 
continues to broadcast 19 hours daily via shortwave. Radio broadcasting 
in the Georgian language has been increased.
    The agency believes it is important to adjust its broadcast 
strategies given changes in the broadcast marketplaces and media 
environments, to maximize the ability of our broadcast entities to 
reach their intended audiences, and to reflect changes in U.S. policy 
priorities. With respect to the most recent broadcast advances under 
the BBG--broadcasting to the Middle East, to Iran, and the AfPak 
region--the USG actively supported the new investment necessary to 
mount and sustain a communications link to these critical areas.
    The BBG continuously assesses its resource allocation strategy 
against U.S. policy priorities. Changes are made to make the most of 
limited resources. International broadcasting continues to be one of 
the most cost-effective public-diplomacy tools given its realized and 
potential impact.

    Question. The BBG has been described as an organizational jumble of 
broadcasting entities, each its own independent human resource offices, 
finance offices, and management structures. What could the BBG be doing 
to streamline operations and spend more of its funds on broadcasting 
rather than administration? In addition to operating more efficiently, 
would a more streamlined operation also be more effective in terms of 
developing and implementing a U.S. broadcasting strategy? Would that 
also help improve morale among workers?

    Answer. The U.S. International Broadcasting Act consolidated U.S. 
broadcasting entities within a single agency, but left intact the 
different federal and corporate grantee structures. Given that the 
federal agency (encompassing VOA and OCB) must follow government laws 
and regulations with respect to hiring, contracting, and other matters 
that the grantees may not be required to follow, some separate 
administrative functions are required.
    Since becoming an independent federal agency, the BBG has 
streamlined engineering operations and services, as well as marketing 
and affiliate offices--both consolidated under the IBB. The agency has 
also streamlined certain broadcast services, by eliminating services in 
Eastern Europe where media freedom is well developed. In other 
streamlining efforts, the agency has reduced the number of broadcast 
entities that serve a single market. Such streamlining efforts 
recognize the underlying principle in the U.S. International 
Broadcasting Act that establishes professional broadcast ``standards 
and principles'' for all of the broadcast entities under the BBG. These 
principles, which utilize the VOA Charter as their foundation, provide 
for a uniformity of professionalism and journalistic standards for all 
BBG broadcasters, and allow for a broad-based journalistic role for all 
entities.
    The agency has also encouraged the sharing of exclusive and other 
interviews and news stories among broadcast entities in order to 
leverage the ability to produce more powerful programming across the 
broadcast entities. This is a recent development that, over time, 
should promote a broader culture of partnership across the entities, 
and an appreciation of U.S. international broadcasting as a cohesive 
unit.
    Whether further streamlining of operations and/or programming would 
improve employee morale is uncertain. To date, efforts to streamline 
programming or operations often result in concerns that the agency is 
seeking to weaken a specific broadcast entity, when in fact the 
strategic goal is to strengthen U.S. international broadcasting as a 
whole.

    Question. The Middle East Broadcasting Network has come under 
scrutiny from the Inspector General and consumes an enormous budget. 
Why is this separate entity, which employs significant numbers of 
outside contractors, necessary? Could we not rely on the experienced 
staff of Voice of America, which attracts significant viewership in 
Afghanistan and Iran?

    Answer. The Office of Inspector General is currently doing a 
routine inspection of MBN, just as it does with all BBG entities. MBN's 
current OIG inspection has been incorrectly written up in the press as 
if OIG were investigating an allegation or complaint. These reports are 
inaccurate.
    Several years ago, OIG did a review to determine whether sufficient 
editorial processes were in place to ensure that programming aired was 
consistent with MBN's Journalistic Code of Ethics and they commended 
Alhurra for ``taking significant steps to tighten its procedures and 
policies in order to protect its credibility that is critical to 
fulfilling its mission.'' Such reviews are not unique to MBN. OIG 
performed an inspection of VOA's Deewa Radio earlier this year to 
examine editorial procedures and safeguards.
    When the Middle East Broadcasting Networks were formed, there was a 
pressing need to revamp U.S. broadcasting to the 22 countries of the 
Middle East. At that time, VOA broadcast via shortwave to a very small 
audience (less than 2 percent). After 9/11, calls for a strong response 
to engage significant audiences in the region were intense, and 
proposals to establish the new service under VOA or RFE/RL were 
evaluated. The BBG, the administration and Congress determined that the 
most effective means to meet the requirement most efficiently was to 
establish a new grantee.
    MBN, a grantee organization similar to RFE/RL and RFA, operates 
under the same journalistic standards under the U.S. International 
Broadcasting Act. It is a full-service broadcaster to the region 
carrying out the act's program mandates with respect to presenting the 
policies of the United States, as well as providing local news and 
information to Middle Eastern audiences.
    Television is a more expensive medium than radio, but it is 
currently the medium of choice for audiences seeking news in the 
region, with research showing that nearly 90 percent of the region's 
population relies on television to receive their news. As a public 
diplomacy tool with the ability to affect the perspectives of millions, 
television broadcasting to the Middle East is a cost-beneficial 
investment.

    Question. As the 20th anniversary of the fall of the Berlin Wall 
approaches, we are reminded of the importance of Voice of America in 
keeping hopes of freedom alive in the Eastern bloc. The Voice of 
America still plays an important role, but the media landscape has 
changed dramatically in the last 20 years. What do you need to be as 
effective as possible in Iraq and Afghanistan, to maximize your reach, 
using, for example, mobile technology which is so important there?

    Answer. As in broadcasting to other areas, broadcasting to Iraq and 
Afghanistan require sustained investment and an ability to reach 
audiences with quality programming in the vernacular language, 
transmitted through the media the audiences use and prefer. For the 
most part, this means providing transmission via radio and television. 
But the Internet and mobile devices will play an increasingly prominent 
role, and the agency is testing these markets and increasing its 
capability to utilize them. BBG programming can currently be heard via 
mobile device. But in certain markets, the use of mobile devices for 
audio use is still limited, too expensive, or both.
    There are three main factors to maximizing reach via cellphones. 
First, good audience and market research is critical to know precisely 
who is using cell phones, to what extent, and how--as well as to 
understand the capabilities and services of local cell phone companies. 
SMS for personal messages is generally ubiquitous, but do users also 
receive news via SMS messages? Do they pay for such messages? If not, 
can news providers pay for and send them messages?
    In Afghanistan, over 70 percent of the population is illiterate, so 
text messages are less relevant than voice messages. In Iraq, some 22 
percent of cell phone users listen to the radio and 17 percent access 
the Internet on their phones. The phone is thus an enabler of parallel 
media as opposed to being an entirely separate channel in its own 
right. Second, adequate funding is required for sustained, daily 
message service, where and when messages are appropriate. The cost can 
run as much as two or three cents per message, and quickly adds up: one 
daily, headline service to 100,000 users would be $2,000-$3,000. Third, 
cooperation from local governments and telecommunications firms is 
necessary. It is not always possible for foreign entities to have 
unfettered access to local cell phone networks. VOA has not yet been 
able to implement service in Afghanistan with funding from the State 
Department for antinarcotics messages due to difficulties with Afghan 
cell phone companies. Negotiations there continue.

    Question. What is your relationship to local independent media 
outlets, such as Moby Media and Tolo TV in Afghanistan which broadcast 
programs that hold government accountable and introduce ideas such as 
empowerment of women, often through narratives. Do you support local 
media, or are you in competition with it? In followup, how do you 
respond to claims that BBG outlets draw staff away from those local 
entities due to their higher pay? Is that the right effect of our 
engagement in these countries?

    Answer. First, the BBG mandate is to provide accurate and objective 
information to significant audiences abroad. We are not in competition 
with local media, but we provide a Western journalistic model that is 
unique in these areas. Neither do we provide grant assistance directly 
to local media. BBG grants are limited to the radio and television 
organizations over which the BBG has supervision, and which fall under 
the journalistic requirements of the U.S. International Broadcasting 
Act. The BBG does facilitate some journalism training programs, often 
in coordination with USAID and State Department posts overseas. The 
agency also may provide assistance to local stations that carry our 
programming during a portion of their broadcast schedules. In these 
cases, we may make a small payment to the station to pay for air time, 
or we may provide a satellite downlink capability so that the station 
may pull down our programming for rebroadcast.
    For example, the BBG has had discussions with Tolo TV in the past 
regarding the possibility of airing VOA programming on Tolo. 
Unfortunately, their price for time on the air (which was priced by the 
second) was prohibitive--up to $3 million to place a half-hour program. 
Such a price would have made Tolo the most expensive affiliate 
relationship the BBG has ever had. Overall, we have found that buying 
air time in Afghanistan can only be accomplished at inflated prices, 
partly because of competition from other USG agencies for air time.
    BBG entities do not seek to draw staff away from local broadcasters 
in Afghanistan. However, we do have a critical requirement for 
journalists with local language skills and knowledge of the local 
political and cultural scene to enhance our broadcasts and the 
connection they make with audiences. Often, these skills are found in 
local journalists or broadcasters. In the case of BBG broadcasting to 
Afghanistan, the talents and knowledge of the RFE/RL and VOA staff have 
made our broadcasts the most listened-to in the country. It is true 
that VOA and RFE/RL have several current employees who once worked for 
Tolo. About 4 years ago, RFE/RL hired a journalist from Tolo TV to work 
in Radio Azadi's headquarters in Prague. In addition, two former Tolo 
broadcasters are employed by VOA Afghan TV. VOA did not actively 
recruit either broadcaster. Each responded to VOA's broad solicitation 
for employment, and was selected.
    The BBG provides occasional assistance to local broadcasters, 
especially in the area of journalism training. In Afghanistan, RFE/RL 
may provide assistance to media outlets if they request help and 
support. For example, RFE/RL has helped state radio in training their 
journalists. It has also provided internships to the faculty of 
journalism. In 2007, RFE/RL had a 1-year affiliation with Ariana TV, in 
which Radio Azadi programming was rebroadcast over the Ariana network. 
But this affiliation was ended due to the inconsistent quality of 
Ariana TV production.
    VOA also provides some training opportunities overseas. Recent 
activities in Afghanistan and Pakistan have focused on training local 
VOA employees and stringers. In October 2009, VOA hosted a 2-day 
seminar on narcotics trafficking in Afghanistan, where 90 percent of 
the world's opium is produced. The series of workshops was designed to 
educate VOA journalists working in Afghanistan to fully understand the 
impact of narcotics addiction, treatment, and how illicit poppy 
cultivation is funding the Taliban insurgency. It also explained new 
and emerging U.S. policies to VOA journalists who are gearing up to do 
special television and radio series on Afghanistan's narcotics problem. 
The seminar brought together top Afghan officials, U.S. representatives 
and experts on the drug trade, including Ahmad Beg Qaderi, General 
Prosecutor from Afghanistan's Anti-Drug Force; General Daoud Daoud, 
Deputy Interior Minister of Counter Narcotics; Mark Calhoun from the 
United Nations Office on Drugs and Crime; and Drew Quinn from the U.S. 
Embassy's Narcotics Affairs Section. Along with two days of briefings, 
VOA journalists also visited the Nejat Center in Kabul, where treatment 
programs are available for Afghans suffering from drug addiction and 
HIV and AIDS. In October, the Afghan service aired special radio and 
television segments on Afghanistan's narcotics epidemic.
    Another training session funded by the State Department is planned 
for November/December 2009 for VOA Afghan TV stringers in Dubai. Eleven 
stringers will travel from Afghanistan to Dubai for a week of training 
in camera and TV reporting.
    In August 2009, Deewa Radio service chief Nafees Takar traveled to 
Islamabad and Quetta to conduct journalism training for 21 Deewa 
stringers. The stringers discussed VOA's journalistic standards and 
practices, received hands-on training on how to file a story and how to 
coordinate coverage efforts amongst themselves and with Deewa staff in 
Washington.
    BBG programming in Afghanistan is not in competition with local 
media that utilize objective reporting techniques. We view our 
broadcasts as complementary to these broadcasters. However, it is still 
the case that even the more ``objective'' media in Afghanistan do not 
meet the standards of objectivity required of BBG entities. The focus 
and scope of much local Afghan media is on entertainment, while RFE/RL 
and VOA are more focused on news, information, and the discussion of 
ideas by serving as a platform for debate, and for interaction with 
listeners through call-in shows. Special programs on women's issues, 
youth, and religious tolerance provide ideas that are simply not a part 
of the Afghan media environment on any consistent basis. Besides being 
the most trusted and reliable radio, Azadi (RFE/RL) also offers public 
service broadcasting that helps to provide answers to the daily 
concerns of listeners and seeks to hold government, officials, warlords 
and other powerful individuals in government and society to account. In 
short, U.S. international broadcasting provides local coverage and 
perspective on daily events, but with an international standard of 
quality in terms of content, and with a higher standard of journalism. 
By contrast, local media may advocate personal, political, social, 
religious, ethnic, cultural and regional agendas which sometimes 
conflict with ideas such as the empowerment of women and other 
minorities, as well as the concept of Afghan national unity generally. 
RFE/RL and VOA follow a two-source rule. Local media may allow reports 
based on rumor, unreliable and unverifiable sources, and may suffer 
from an absence of editorial checks and balances.

    Question. Why is U.S. policy to spend millions of dollars on our 
own broadcasts, as opposed to spending equivalent amounts in creating 
cadres of citizen journalists, training local journalists to report 
credible and quality programs, and providing financing to support real 
investigative journalism by local reporters?

    Answer. As noted above, we do not view U.S. international 
broadcasting and support for indigenous broadcasters as being mutually 
exclusive. The United States has engaged in international broadcasting 
for over 60 years. These broadcast efforts help build democratic 
institutions. BBG broadcasters also serve as an example of professional 
journalism in the countries to which they broadcasting.
    In Afghanistan, new indigenous stations are developing. However, 
much of the local media, especially the privately owned outlets, 
generally advocate specific agendas. The point of these outlets is not 
objective journalism, but to advance the specific political, social, 
religious, ethnic, or cultural interests of particular politicians or 
warlords, or tribal or ethnic groups. In short, most local media 
outlets are owned by individuals, groups and parties with specific, 
partisan agendas. The reality of much Afghan media is that journalists, 
whatever their personal beliefs, when working for such outlets are not 
free to pursue objective news stories, regardless of their training. In 
such an environment of media ownership, providing journalism training 
to meet an objective standard is extremely valuable, but would be 
unlikely to compensate for the absence of an unbiased media, as many 
journalists would remain obliged to broadcast stories that serve their 
employer's interests, rather than a standard of objectivity and the 
broader goals of national unity and democracy.
    In many areas, most media outlets are funded by the governments and 
organizations that trained journalists would be investigating. To serve 
the Afghan public with reliable, trustworthy news, requires media 
outlets such as RFE/RL or VOA that are committed to accurate objective 
journalism. This is accomplished through strict editorial policies and 
an international standard of quality journalism marked by impartiality. 
BBG journalists are helping citizens to have a better and clearer 
understanding of news and information and its impact on their daily 
lives. U.S. international broadcasting is able to stand above the 
partisan, tribal, ethnic and religious divides of Afghan society.

    Question. You mentioned polling figures in your statements. Please 
provide an accounting of VOA, RFE/RL and MBN's annual expenditures on 
polling? In your written statement, you state that RFE/RL and VOA 
combined reach 26 percent of those who say they strongly oppose the 
Afghan Government. Please provide a sample of VOA and RFE/RL's polling 
questions used to determine that. In a followup, should we consider 26 
percent audience a high figure? Does your reach fluctuate and, if yes, 
can you explain conditions that create such a fluctuation?
    The BBG spent $10.4 million in fiscal year 2009 for audience and 
market research. That amount divides roughly equally into quantitative 
(polling via surveys) and qualitative (focus groups, in-depth 
interviews, etc.) studies. The approximately $5 million for polling 
covers all BBG broadcasters, including VOA, RFE/RL, and MBN as well as 
Radio Free Asia and the Office of Cuba Broadcasting. The BBG manages 
the research, with broadcast entity participation, to avoid duplication 
of effort. In countries where more than one BBG broadcaster operates, 
research is jointly fielded and shared. For example, all BBG survey 
research in Asia done for VOA also serves RFA. The BBG has undertaken 
no recent survey research in Cuba due to methodological and regulatory 
constraints. In contrast, qualitative research, which addresses 
programming content and presentation, is specific to each BBG 
broadcaster.
    The audience reach figure among those who strongly oppose the 
Afghan Government is derived from correlating responses to questions 
regarding media habits and attitudes. The standard BBG question to 
gauge listening and viewing is: ``Apart from today, when was the last 
time you heard (or watched) a program produced by (`x' station)?'' 
Response categories are yesterday, last 7 days, last month, and last 
year. Attitudes are captured in political typologies developed by the 
Intelligence and Research Bureau of the State Department, involving the 
following questions:

  <bullet> How much confidence do you have in the following groups of 
        people? A lot, some, little or no confidence in--the National 
        government?
  <bullet> And how much confidence do you have in the following groups 
        of people? A lot, some, little or no confidence in--Your 
        provincial governor?
  <bullet> As you look toward the future, which system do you think is 
        best suited for Afghanistan?

          1. The restoration of the Taliban government;
          2. Constitutional government respecting Islamic principles;
          3. A decentralized, federal and secular democratic republic;
          4. A centralized and secular democratic republic; or
          5. A constitutional monarchy?

  <bullet> Do you strongly support, somewhat support, somewhat oppose 
        or strongly oppose the presence of the following groups in 
        Afghanistan today? Taliban?
  <bullet> How favorably or unfavorably inclined are you personally 
        toward the Taliban? Very, somewhat, not very, or not at all?
  <bullet> Who would you rather have ruling Afghanistan today: the 
        current government or the Taliban?

    The 26-percent audience number for Afghanistan of those who oppose 
the Afghan Government and listen to BBG broadcasts is a strong but not 
necessarily high number. It is supported by other indicators. Afghans 
have long cited RFE/RL's Radio Azadi as one of their top sources of 
news. In the July and August 2009 State/INR tracking polling in 
Afghanistan, Azadi was the No. 1 source among all sources, foreign and 
domestic.
    The total weekly audience for BBG broadcasts in Afghanistan is 56 
percent of adults, 15 years of age and older. This very high level is 
nonetheless down somewhat from previous years, due mostly, the BBG 
believes, to rising domestic radio competition. Since 2002, some 100 
local FM stations have sprouted up across the country. InterNews has 
actively supported this development, launching some 35 local stations 
and supporting them with programming and station management assistance. 
Barring a cataclysmic event, like the return of the Taliban, Afghan 
indigenous media are likely to continue to prosper, further fragmenting 
the radio market and corresponding audiences. Such progress would be a 
positive sign, however, indicating gathering strength of indigenous 
media.

    Question. You stated in your written statement that, ``Every week, 
seventy-three (73 percent) of Iraqi adults . . . listen to or watch one 
of the four BBG broadcasters serving the country. . . . '' Please 
explain how you arrive at that figure. You stated that Alhurra has a 
32-percent daily reach; Radio Sawa has a 23-percent weekly reach, RFI 
has a 10-percent weekly reach, and VOA Kurdish reaches 12 percent of 
its intended audience.

    Answer. BBG testimony also included Alhurra's weekly audience of 64 
percent. That figure, combined with those of the other BBG broadcasters 
in Iraq, yields the combined, unduplicated weekly reach number of 73 
percent.
                                 ______
                                 
            QUESTIONS SUBMITTED BY SENATOR RICHARD G. LUGAR

    Question. At Thursday's hearing, the question was raised on the 
level of cooperation offered by the Afghani Government regarding U.S. 
broadcasting efforts. Mention was made by the panel that the Afghani 
Government has been sitting on a U.S. Government request to begin 
transmission into the border areas from Afghanistan and that one 
minister in particular was at issue. For the record, please provide the 
committee with a history of the transmission facility in question--when 
was the tower erected, what other facilities are on site, how much 
total money has the U.S. Government spent both in construction and 
upkeep costs of the facility. Please provide a map showing the location 
of the facility and the potential/intended broadcast coverage this 
facility could provide. Last, please outline the process and timeline 
by which the United States has sought to obtain official Afghani 
permission/license to operate the facility, including the ministry/
minister with whom the final decision, according to your remarks at the 
hearing, has sat.

    Answer. BBG has yet to receive a signed copy of the contract 
modification that formally permits the startup and operation of the 
Khost transmitter--a project that began in fall 2005. Radio Television 
Afghanistan is the expected station operator. BBG continues to hear 
encouraging information from the Afghan Ministry of Information, and 
there have been signs of progress.
    Engineers from Radio Television Afghanistan--the state broadcaster 
also controlled by the Ministry--have been given tentative approval to 
perform the final commissioning of the Khost transmitter. But the 
Ministry of Information continues to block the contract for the 
operation of the Khost facilities by Radio Television Afghanistan 
(RTA).
    The foundation for establishing transmission assets in Afghanistan 
dates back to 2002. A bilateral agreement between the United States and 
Afghanistan was signed on October 3, 2002. This agreement grants the 
United States the right to broadcast both Medium Wave from Pol e Charki 
(400 KW, 1296 KHz) and FM (100.5 MHz) from various provinces in 
Afghanistan. This agreement was amended on May 4, 2006, to include 
additional FM locations and granted the United States the right to 
construct, install, and operate a 200 KW medium wave transmitter (621 
KHz) in Khost, Afghanistan. The agreement and the amendment grant the 
United States full use and exclusive rights to these frequencies.
    Abdul Karim Khurram, Minister of Information and Culture of the 
Islamic Republic of Afghanistan, visited IBB/VOA Washington, DC, 
headquarters in May 2008 to discuss a number of issues related to the 
agreement. The Minister asked that the following language be added to 
the bilateral agreement.
    ``Afghanistan shall have the right to terminate the transmission of 
programs, after consultation on issues not exceeding 24 hours, that are 
deemed detrimental to the national interests of Afghanistan.''
    The BBG believed this language allowed the potential for Afghan 
Government to attempt to censor the content of the broadcasts. Lengthy 
negotiations continued, with the Minister finally agreeing to the 
existing language contained in the bilateral agreement.
    Once this agreement was reached, a contract for the operation of 
the Khost facilities was sent to Radio Television Afghanistan (RTA) for 
signature (June 2009). Minister Khurram objected to the signing of the 
contract. As of November 2009, the Minister continues to block efforts 
to resolve this issue, in spite of efforts by U.S. Embassy Kabul over 
the past 6 months to resolve the problem.
    The Khost project was also a challenging one during its earlier 
construction phase. Security costs and concerns, as well as 
uncertainties of doing business in Afghanistan in an area of conflict, 
were factors in slowing the construction schedule. Initially, we 
expected to be on the air by the end of summer 2008. Key events in the 
site construction include the following:
    Fall 2005: BBG launches the project to install a high-powered 
medium wave (MW) radio station, and seeks assistance from Radio TV 
Afghanistan (RTA) in locating a site in the border region and in 
operating the station. RTA could facilitate use of a site owned by the 
Afghan Government, and the acquisition of a frequency and broadcast 
license. The BBG had previously worked successfully with RTA in 
establishing and operating a large MW transmission station in Kabul and 
FM facilities throughout Afghanistan that currently broadcast BBG 
programming to Afghan audiences. RTA agrees to allow BBG to establish a 
new medium wave transmitter near the Afghanistan-Pakistan border 
region, and to operate the station for the BBG.
    March 2006: BBG awards a letter contract to Harris Corporation to 
procure the medium wave transmitter, antenna, and other equipment to be 
sent to the site.
    April 2006: RTA surveys potential sites and recommends the location 
for the MW station.
    May 2006: Amendment of the country-to-country agreement between the 
United States and Afghanistan signed permitting the establishment of a 
new MW transmitting station. Meanwhile, VOA's Radio Deewa begins 
broadcasts to local populations through a new BBG constructed FM 
transmitter installed in Khost, Afghanistan, by RTA.
    August 2006: Because of security and logistical concerns associated 
with constructing and operating a MW station in Khost and after 
consultations with RTA about locating a more easily secured site, the 
BBG gave serious consideration to moving the location for the station 
to a different site in Khost.
    September 2006: Formal contract issued to Harris Corporation for 
the installation of a self-contained MW transmitting station, including 
onsite power generator. Harris selects Antensan as its major 
subcontractor to provide antenna tower materials and most of the onsite 
installation.
    November-March 2007: Harris Corporation and Antensan survey eight 
potential medium wave transmitter sites identified by the Afghan 
Government for suitability related to size, topography, soil 
conductivity, and ability to secure. RTA requires BBG to focus on the 
site it recommended in April 2006. RTA designates the necessary 
personnel to operate the station at that location.
    May-September 2007: Harris Corporation prepares a detailed 
statement of security requirements and costs for the project and begins 
negotiations with potential subcontractor, Olive Group, to provide 
security and other logistical support. BBG seeks security assistance 
from DOD. DOD commits to providing secure housing for the installation 
team at the Tani District Police Station and logistics support in the 
form of bottled water and MREs. BBG must make appropriate arrangements 
locally for adequate security required by the installation team.
    September 2007: BBG confirms the level of assistance BBG can expect 
from DOD during the construction of the transmitting station at Khost. 
Assistance will include additional convoy security during 
transportation of equipment when DOD is already running a convoy 
between the same locations.
    October 2007: Olive Group raises its estimates for security support 
requirements after meetings with U.S. military and local government 
officials. BBG must seek other, potentially more cost-effective 
alternatives to Antensan/Olive Group proposal in order to complete the 
project. BBG informs RTA that the project is at risk unless they can 
provide installation and security within the BBG's budget. RTA agrees 
to develop a feasible installation proposal.
    November 2007: BBG completes shipment to Afghanistan of all 
equipment required for the medium wave transmitter installation. 
Shipments include the transmitter, satellite receiver system (TVRO) and 
program feed equipment, transmission lines and power cables, antenna 
tower and foundation materials, electric power generators, and the 
antenna tuning system. RTA provides secure storage of equipment in 
Afghanistan until needed onsite.
    January 2008: BBG arranges for local equipment installation and 
construction of site walls, guard towers and other buildings, with 
security to be provided by local guards and guaranteed by the Khost 
Province Governor, Tani District Governor, local tribal chiefs, and 
local police.
    March 2008: BBG and Harris invite Antensan (headquartered in 
Germany) to discuss options for assisting the project, given Antensan's 
recent work on a NATO contract in Afghanistan. The subcontractor 
presents a proposal for security that offers to meet the initial 
contract terms. The proposal assumes RTA's role in operating and 
maintaining the site.
    April 2008: Harris and Antensan firm up revised installation 
proposals within the BBG budget. BBG anticipates that this plan can be 
under fixed-price contract by early May with the site operational by 
late summer 2008.
    October 2008: Three Harris Corp. subcontractor technicians, enroute 
to Khost to complete final technical operations to bring the station 
online, and two Afghan support personnel are reported missing. A local 
tribal group appeared to be responsible. Negotiations for release of 
the abductees take place through the Khost/Tani tribal leaders.
    At the time of the abduction, the station was within 2 to 3 weeks 
of being operational. After the abduction, the next months were spent 
in reassembling a team to complete the installation, given the severe 
security situation. Antensan issued a contract to Allied Machinery for 
completion and commissioning of the fuel/generator/electrical systems.
    The total cost of the Khost project to date is $4,896,627.
    Please see the map, below, showing the location of the facility and 
the potential/intended broadcast coverage this facility could provide.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. What specific lessons did the BBG learn in Iraq that it 
has applied in Afghanistan? Conversely, what did it learn not to do 
based on its experience in Iraq?

    Answer. As mentioned in our testimony, at the start of the conflict 
in Iraq, we had no established broadcasting platform in the country--no 
local facilities, no
in-country transmission, no significant national audience. In order to 
reach audiences who received news and information via FM radio and 
television, we had to establish and control the means of transmission. 
We quickly set up local operations, including news bureaus, and secured 
local transmission for both radio and TV, including FM and TV stations 
in major Iraqi cities--important to Alhurra's early ability to gain 
market share while satellite dish ownership spread. Finally, BBG 
broadcasters have sustained 24/7 news and information coverage, pegged 
to developments and issues on the ground in Iraq and in synch with the 
needs and preferences of Iraqi audiences.
    We know from our experience in Iraq, and through similar research 
in other broadcast markets, that a local presence and feel, excellent 
domestic distribution, and highly relevant news and other programming 
is a strong formula for U.S. international broadcasting. At the same 
time, broadcasts provide comprehensive regional and international news, 
including in-depth coverage of U.S. society, culture, and policies--
especially those that are directly relevant to Iraq citizens.
    In Afghanistan and in the Afghanistan-Pakistan border region, radio 
is the dominant medium. Since 2002, VOA and RFE/RL have broadcast a 24/
7 radio stream in Dari and Pashto to Afghanistan, providing the local, 
international, and U.S. news in a similar vein as we do in Iraq. 
Knowing the importance of a local presence and feel, domestic 
distribution, and providing highly relevant news as the basis of a 
successful broadcast formula, the BBG initiated in 2006 a dedicated 
service by the Voice of America, to the Afghanistan-Pakistan border 
area in the unique regional Pashto dialect, called Deewa Radio.
    Deewa focuses on local issues and produces 9 hours of daily 
programming, including live news, current affairs, call-in shows, and 
music. It transmits via AM, FM, and shortwave, with text and audio 
available on the Internet. We see robust audience reaction everyday in 
some 400 listener phone calls to on-air discussion programs.
    Key to Deewa's success is what has worked so well in Iraq and 
Afghanistan--news and information tailored to the audience's needs and 
interests. Some 25 local stringers file a steady stream of reports such 
topics as the Pakistani military's campaign against Taliban forces and 
those displaced by Taliban threats or combat.
    Lessons-learned in other broadcast markets and throughout the 
history of U.S. international broadcasting, including Iraq, show that 
listeners, including those with an anti-American bias, will tune in to 
U.S. broadcasting if it observes strict objectivity.
    In general, we succeed when (a) we deliver the news our audiences 
want and need to make informed judgments about their societies, and (b) 
we deliver our content via the media our audiences prefer and can 
easily access.

    Question. In your testimony you stated ``Alhurra is the fourth 
leading TV channel among hundreds of channels available by satellite 
and locally with 32 percent daily and 64 percent weekly reach.'' Your 
FY 2010 budget request said ``Alhurra is one of the five most popular 
television services in Iraq, outpacing Al Jazeera.''

  <bullet> A. Reach, as I understand it is an advertising term most 
        often used in radio, and sometimes expressed in terms of 
        ``effective reach'' and sometimes more specific terms, as in 
        ``x minutes weekly reach.'' What do you mean by ``reach''? Can 
        you be more specific? Please provide the data to us, along with 
        that of the leading competitors. What is your ``effective 
        reach''?
  <bullet> B. Nielsen ratings, with which most Americans are familiar, 
        measures audience size for television. Does ``reach'' translate 
        to audience size? For example, last week Nielsen ratings leader 
        NCIS had 20.7 million viewers. Can you put your numbers in 
        terms we are more familiar with? How do you collect your data 
        on ``reach''?

    Answer. First, we should note that all BBG research is conducted 
under rules set forth by the European Society for Opinion and Marketing 
Research (ESOMAR--a global, not just European, association, to which 
all professional international survey research organizations belong) 
and also follows the guidelines formulated by the Conference for 
International Broadcasters' Audience Research Services (CIBAR), to 
which all BBG broadcasters subscribe as well as all other major public 
service internationals such as BBC, Radio France International, Radio 
Monte Carlo, Deutsche Welle, and France 24.
    In international usage, ``audience reach'' refers to the percentage 
of the adult population or number of adults who tune in to a given 
station--that is, the percentage or number of adults that a given 
station ``reaches.'' Reach is further defined by reference to the 
platform used--e.g., TV, radio, Internet, etc.--and the time period--
e.g., daily, weekly, monthly, and yearly. The question used to measure 
audience reach is the one noted above--``Apart from today, when was the 
last time you heard (or watched) a program produced by (`x' station)?''
    Weekly reach has been the standard measure for the BBG, BBC, and 
the other government-supported international broadcasters for decades. 
These broadcasters are noncommercial, so there is no need to gather 
very specific time-period listening or viewing such as day-part 
measures used for establishing advertising rates. Also, these 
broadcasters are typically complementary to more dominant domestic 
channels--that is, they are usually not the channels local audiences 
turn to first--and thus a weekly measure is appropriate. This said, the 
BBG gathers daily, monthly, and yearly audience-reach figures as well.
    As you observe, ``effective reach'' is an advertising term--How 
many people in a targeted group are exposed to an ad during a specific 
time period? BBG audience-reach is a directly comparable measure in 
that, again, it shows the number of people who have heard or seen BBG 
content during the last week (or month, year, etc.). BBG research also 
calculates reach among special target groups, such as those under 30 or 
``best educated.''
    ACNielsen's reach figures are based on a ``weekly cume,''' which is 
the unduplicated number of people, (each viewer is only counted once no 
matter how frequently s/he tunes in), who view the station or program 
at least once during the course of a week. Here again, the BBG measure 
is directly comparable. BBG numbers also refer to the unduplicated 
number or percentage of adults who watch or view at least once during 
the course of a week.
    In fact, ACNielsen is the BBG's subcontractor for most countries in 
the Middle East (save Iraq and Syria, where it does not operate). The 
major difference between the Nielsen measure abroad for the BBG and 
that of Nielsen in the United States is that, for the BBG, Nielsen 
gathers information on length of viewing by asking the survey 
respondent how long they usually watch the station--viewing is not 
recorded electronically each time the viewer tunes in, as it is on the 
United States (or other developed research environments where use of 
diaries and other techniques is commonplace).
    The basic audience-reach question has been standardized for use 
across all countries surveyed and is the accepted research ``currency'' 
among CIBAR members. If BBG were asked by BBC or Deutsche Welle for its 
reach number in a given country, it would expect to receive a response 
such as ``the weekly reach of DW (in Arabic) in Iraq is 1.9 percent of 
adults aged 18 or older.''

  <bullet> C. What percentage of Iraqis watch TV from a terrestrial 
        versus satellite broadcast?

    Answer. Nearly all Iraqis have a satellite dish in their home: 96 
percent have home access to satellite dish for television, whereas 27 
percent have home access to cable TV.

  <bullet> D. What are the figures for the other leading competitors?

    Answer. The chart below lists the weekly reach measures (percent of 
adults 15+ in Iraq who watched each station in the past week--i.e., 
answered ``yesterday'' or ``in the past 7 days'' to the question, 
``Apart from today, when was the last time you watched X station?''). 
Al Sharqiya and Al Iraqiya are Iraqi stations that feature both local 
news and entertainment. MBC is a pan-Arab entertainment channel with 
daily news on regional and international events. Dubai TV and Abu Dhabi 
TV broadcast from the United Arab Emirates; both stations have an 
entertainment focus with some local, regional and international news. 
LBC is a Lebanese station that broadcasts entertainment and news. Al 
Forat's broadcasting caters to Iraq's largely Shia population, but its 
political affiliations restrict its appeal. Alhurra, Al Jazeera, and Al 
Arabiya are the only 24-hour news networks.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Base: n=1,563 adults (15 and over) in all but five provinces in 
Iraq, November 2008.

    Question. What is the rest of the TV news market like in Iraq? You 
mentioned the large number of competitors for TV news in the Arab 
market. How would you measure the quality, freedom, and accessibility 
of competitors? Is free media taking hold in Iraq?

    Answer. Attached is a detailed report prepared by the BBG's global; 
research contractor InterMedia for the Open Source Center based on BBG 
Iraq research (BBG selectively authorizes such use of its data for 
official government purposes). This study provides a comprehensive look 
at the Iraqi media environment, including TV.
    In its 2009 report on global press freedom, Reporters without 
Borders rated Iraq 145th out of 175 countries, commenting that 
``freedom of expression is far from attained in Iraq.'' Freedom House, 
for its part, judges that the Iraqi media environment is ``not free'' 
and cites its two main challenges being ``the country's ongoing 
security threats and government restrictions on investigating 
corruption and abuses of power.'' The BBG observes in its everyday 
journalistic practice in Iraq that media outlets often represent the 
interests of specific sects or factions. Thus, despite the fact that 
such outlets have proliferated since the fall of Saddam Hussein, access 
to impartial, reliable news from domestic sources remains sharply 
limited.

[Editor's note.-- The report ``InterMedia Open Source Center'' 
mentioned above was too voluminous to include in this printed hearing. 
It will be maintained in the permanent record of the committee.]

    Question. It seems as if many polls reflect negatively on the 
popularity and competitiveness of Alhurra. What independent research 
can you share with the committee regarding Alhurra's popularity and 
competitiveness? As you may know, an April/May 2009 University of 
Maryland/Zogby poll reported that Alhurra was picked by 0.5 percent of 
respondents as their favorite TV news source--fewer than the 2 percent 
who picked Al-Manar, and significantly fewer than the 55 percent who 
picked Al Jazeera. Can you help us with an apples to apples comparison?

    Answer. We believe the response provided to question 2(a) from the 
committee responds to this question as well. We provide this 
information again here.
    According to international research firms including ACNielsen, 
Alhurra has a weekly reach of more than 26 million people. Alhurra is 
penetrating the incredibly competitive media market across the Middle 
East. As noted in our testimony before the committee, Alhurra is the 
fourth leading TV channel in Iraq among hundreds of channels available 
by satellite and locally with 32 percent daily, and 64 percent, weekly 
reach. Alhurra is among Iraqis' top choices for news and information on 
TV. This is not an indication of a tarnished brand in a competitive 
marketplace. Research also states that audiences find the programs 
trustworthy, and increase their understanding of America. For example 
in Iraq, nearly two-thirds (63 percent) of Alhurra's weekly audience 
finds the news to be credible. A majority of those who watch Alhurra 
have also reported that Alhurra has increased their understanding of 
U.S. policies (64 percent) and increased their understanding of current 
events (66 percent). These measures are derived from surveys taken by 
independent research organizations such as ACNielsen.
    Confusion over the reach of Alhurra may stem from citations from 
other research that is designed to measure the ``most popular'' 
stations in the Middle East, rather than to measure sustained 
viewership. These polls do not probe frequency of media use, and thus 
do not derive an audience measure. Instead, they ask what station the 
viewer tunes to first. In contrast, the BBG gauges audience reach and 
addresses actual media consumption. Millions of Arabs for whom Alhurra 
is not their first choice for international news nonetheless watch the 
channel. Indeed, BBG research shows that Arabs routinely consult 
multiple sources, far more than two, for news and information.
    While it is a rare instance in which the programming of a U.S. 
international broadcasting entity, broadcasting in any medium, ranks 
among the most popular broadcasters in a particular market overseas, 
this happens to be the case for Alhurra in Iraq and for RFE/RL in 
Afghanistan. Alhurra figures among the top 20 stations in each of the 
14 markets where the BBG has done research--except in Saudi Arabia, 
where it is 21st.

    Question. The Anennberg School study published in July 2008 
conducted for the BBG about Alhurra contained some sharp criticisms and 
recommendations. What action have you taken based on this study's 
recommendations? Have you conducted any focus group work among Iraqi 
audiences?
    The agency closely examined the recommendations in the Annenberg 
study. We believe a number of these are relevant to MBN's continued 
success and will pursue strategies to address the issues raised. We 
believe others are inconsistent with the agency's mission and statutory 
mandate.
    The Annenberg report recommended that MBN increase its coverage of 
America, its values, and culture. Since that time, MBN has continued to 
expand its U.S. coverage to include stories from around the U.S. 
Programs like The Americans, Inside Washington and daily news reports 
about issues that portray American values are a daily staple on 
Alhurra. MBN/BBG has proposed further expansions of U.S. coverage that 
are under consideration.
    In addition, Annenberg recommended that Alhurra connect more with 
its Arab audience. In March 2009, Alhurra launched Al Youm, a live 3-
hour program that originates from five countries in three continents 
including Dubai, Beirut, Cairo, Jerusalem and Alhurra's headquarters in 
Springfield, VA. It brings together all areas of the Middle East (the 
Gulf, North Africa and the Levant) and the United States, allowing 
viewers to see how issues not only affect the people in their country, 
but those who live in the countries around them. Themes have included 
the global economic crisis, the impact of the Internet, child labor 
laws and cultural diversity and development. Initial reaction 
demonstrates that Al Youm is connecting with the audience.
    The report also criticized Alhurra for a perceived bias in stories 
as pro-American and pro-Israeli. Since the report was issued, MBN has 
instituted a number of mandatory training programs for its journalists, 
led by the chair of the University of Missouri School of Journalism. 
MBN reporters from the region were brought to MBN's Springfield 
headquarters to benefit from the training.

    Question. How do you determine the lifecycle of such a cost-
intensive program such as Alhurra Iraq? Would you want to phase out, 
privatize, or perhaps transition the Alhurra operation to another 
market, corresponding to the end of the U.S. force deployment and the 
end of Operation Iraqi Freedom?

    Answer. The agency evaluates the effectiveness of Alhurra-Iraq in 
the same manner as it does any of the programs or entities under its 
supervision. Television is an expensive medium relative to radio. 
Targeted programming to a single market such as Iraq adds a cost 
factor, requiring a strong physical presence in-country with staff and 
technical assets. The development of a democratic and stable civil 
society requires a free and fair press. Iraq's media has not developed 
to the point of filling that need. Alhurra-Iraq fills that void. We 
believe maintaining an effective method of communicating with Iraqis is 
essential during and after the military pullout of Iraq.
    Alhurra-Iraq has been recognized for its work to bring accurate and 
objective reporting to the people of Iraq. In 2009, the Al Mada 
Institute for Media, Culture and Arts awarded Alhurra 12 accommodations 
for excellence in broadcasting including the best male and female 
correspondents; first through third place for best political talk show; 
and first and second place for best cultural show. Letters from the 
Multi-National Forces and the head of the Iraqi Election Committee 
thank Alhurra for balanced coverage of news in Iraq and fair reports on 
the Iraqi elections.
    At this time, we have not considered transitioning or broadening 
the Alhurra-Iraq operation to another market.

    Question. Has the Board considered restarting VOA Arabic service, 
or one in Punjabi?

    Answer. MBN programming carries out the agency's broadcast mission 
in the Middle East, and serves the broad standards and principles for 
BBG broadcasting as set out in the Broadcasting Act, including the 
principle derived from the VOA Charter that ``United States 
international broadcasting shall include a balanced and comprehensive 
projection of United States thought and institutions . . . '' and 
``clear and effective presentation of the policies . . . of the United 
States Government and responsible discussion and opinion on those 
policies.''
    Just as VOA broadcasting serves its traditional broadcast role in 
large parts of Africa, as well as providing those markets with 
significant and valued local news and information, so does MBN serve 
all of these roles, representing U.S. international broadcasting in the 
Middle East. There are no plans at this time to initiate a new Punjabi 
service.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre></body></html>
